Report No. SPO-2011-007                         June 14, 2011




      Assessment of the U.S. Department of Defense

      Efforts to Develop an Effective Medical Logistics

     System within the Afghan National Security Forces
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.


                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
                                     INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704


                                                                           June 14,2011


MEMORANDUM FOR DISTRIBUTION


SUBJECT: Assessment of the U.S. Department of Defense Efforts to Develop an Effective
            Medical Logistics System within the Afghan National Security Forces (Project No.
            D20 11-DOOSPO-0092.000)


       We are providing this final report for review and comment. We perfOimed this
asSessment in response to a request from Commander, NATO Training Mission-Afghanistan
(NTM-A)/Commander, Combined Security Transition Command-Afghanistan (CSTC-A). We
considered client comments on a draft of this repOli when preparing the final repoli.


       For purposes of this report, we request the following additional COimnents and
infonnation within 30 days of the repOli publication date or in the time frame as indicated in our
response:


   •   NTM-A/CSTC-A - RecOimnendations 6a, 6c, 7, 8a, 8b, 8c, llb, 13a, 13b, 14a, 14c, 19b,
       and 20.


   •   ISAF - Recommendations 17a.


   •   Under Secretary of Defense for Personnel and Readiness - 17b and 19a.


   If possible, send your comments in electronic format (Adobe Acrobat file only) to
SPO@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the I Signed I symbol in place of the
achlal signahu·e. If you anange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).


       We appreciate the cOUltesies extended to our staff. Please direct questions to Mr. Phil
VanLandingham at (703) 604-8948 (DSN 664-8948), joseph. vanlandingham@dodig.mil.




                                        £&k9--
                                         i: DeputY     
                                                        p tor General
                                                Special Plans and Operations
              Executive Summary: Assessment of the
              U.S. Department of Defense Efforts to
              Develop an Effective Medical Logistics
              System within the Afghan National
              Security Forces

Who Should Read This Report?
Personnel within the Office of the Secretary of Defense, the Joint Staff, the U.S. Central
Command and its subordinate commands in Afghanistan, the Military Departments, and
Agencies that are responsible for and engaged in efforts to develop an effective Medical
Logistics System in support of the Afghan National Security Forces (ANSF) should read this
report.

Background
This assessment of the ANSF Medical Logistics System was conducted in response to a request
received on November 10, 2010 from the Commander, NATO Training Mission-Afghanistan
(NTM-A)/Commander, Combined Security Transition Command-Afghanistan (CSTC-A) that
specifically asked the Department of Defense Deputy Inspector General (DODIG) Special Plans
and Operations (SPO) to:

    •	 “examine the systems

       in place for U.S. 

       procurement and 

       distribution, storage,

       accountability and use

       of pharmaceuticals for

       the Afghan National

       Army”

    •	 “assess our advisory

       and oversight

       mechanisms of the 

       NTM-A/CSTC-A 

       Medical Training

       Advisory Group 

       (MTAG) and Logistics 
Throughout fieldwork, our assessment teams traveled throughout
       Training Advisory
      Afghanistan to visit medical facilities and warehouses, and interview
                               ANSF medical personnel, ANSF medical logisticians, and their U.S. and
       Group in supporting
 Coalition Force mentors. Here a DODIG assessment team boards a
       this”
                  Canadian military helicopter in Mazar-e-Sharif on December 5, 2010.




                                                 i
On November 28, 2010, assembled members from DODIG departed CONUS to commence
fieldwork. The team conducted physical site visits and held interviews with ANSF and
NTM-A/CSTC-A officials located in Kabul, Mazar-e-Sharif, Kandahar and Heart. Due to
security considerations, the team interviewed NTM-A/CSTC-A medical mentors in Gardez by
telephone.

On December 16, 2010, the SPO team provided the Commander NTM-A/CSTC-A Lieutenant
General William B. Caldwell, USA and his staff an outbrief with preliminary observations
resulting from the field work conducted.

In February 2011, in a subsequent engagement directed by the DODIG, SPO and OIG Audit
personnel on the ground in Kabul conducted a walk-through and “quick look” review of apparent
health care, sanitation, and inventory problems at the Afghan National Army (ANA) National
Military Hospital (NMH). The team reported their results to the command and the DODIG. The
command acknowledged identified shortcomings, qualified certain observations, and identified
actions being taken to improve not only NMH conditions but also to address broader ANA health
care system issues. Please see Appendix F for the reporting on the review referred to in this
paragraph.

Development of the Afghan National Army (ANA) and Afghan
National Police (ANP) Health Care System
The purpose of the ANA and ANP health care system is to provide health service support to
Afghan Soldiers, Policemen and other beneficiaries of the ANSF. The ANSF medical units
include:

   •	 The ANA Surgeon 

      General and staff, the 

      ANA Medical

      Command consisting

      of the Dawood

      National Military

      Hospital and its

      supply depot, four 

      regional hospitals and 

      their supply depots, 

      and the Armed

      Forces Academy of

      Medical Sciences.


       In addition, ANA

       Medical Staff at
          National Military Hospital, Kabul, Afghanistan, December 2, 2010.
       Corps and below
       Include Corps Surgeons, Garrison Clinics, Brigade Surgeons and staff, three battalion aid
       stations per combat brigade, one medical company and one medical platoon per Brigade
       Combat Service Support Battalion.


                                                ii
    •	 The Afghan National Police (ANP) Surgeon General and staff, and medical assets which
       include the Office of the Surgeon General and subordinate administrative offices, Afghan
       National Police Hospital, training center clinics, and medics assigned to the border and
       civil order police.

For a more complete description of the ANA and ANP Health Care System as well as a map
identifying facility locations, please refer to Appendix E of this report.

Results
The report is divided into three parts: (1) Planning and Execution; (2) Accountability and Control
Mechanisms, and (3) Coalition Medical Mentoring Effort. The report makes 20 observations and
50 recommendations. The results are discussed therein.

Planning and Execution
There were 10 observations associated with planning and execution to develop a credible
medical logistics system. The observations indicate that there was evidence of planning for the
development of a medical logistics system, however execution had not matured.

Shortcomings in these significant areas of planning and execution indicated the ability of the
ANA to build and maintain a sustainable medical logistics system at its current level of
capability was not feasible in the absence of U.S. and International community support.
Substantial systemic improvements are required before the ANA has and can operate with
sustainability.

Accountability and Control Mechanisms
Under this heading, there were five observations associated with the adequacy of the medical
logistics system regarding accountability and control mechanisms, including procedures for
funding, acquisition, receipt, storage, accountability and distribution of Class VIII 1 consumables.
While a system of controls existed for medical logistics, it is noted that the application of key
elements was inadequate and as a result, accountability was weak.

Because ANSF medical officials and logisticians did not properly establish requirements for
procurements, or manage or account for Class VIII inventory in accordance with MoD policy,
the United States and its Coalition partners have been purchasing inventory that was not needed.
In addition, Class VIII inventory (primarily pharmaceuticals) provided to the ANSF by the U.S.
Government or other Coalition Forces was at significant risk of theft, misappropriation, or other
illegal acts. Lastly, the medication needed by medical care providers has not been consistently
supplied or provided at all.

Coalition Medical Mentoring Effort
There were five observations associated with the sufficiency of mentoring/advising efforts to
develop an effective, sustainable medical system in the absence of established medical standards.
It was clear that medical mentors and advisors were producing exemplary results working with
1
  Medical materiel, including equipment and supplies, is referred to as Class VIII; this designation is used
throughout this report.

                                                          iii
their Afghan counterparts in austere and challenging environments. However, pre-deployment
preparation and sufficient in-country orientation and management for medical mentors were
lacking and compounded by the fact that the medical mentoring staff was approximately half of
the number NTM-A/CSTC-A planned for. Additionally, medical logistics mentoring has had
limited success in enabling the ANA to develop credible Class VIII support for the ANA Health
Care System.

Based on our assessment of the critical areas above, we determined that Medical Mentoring
efforts are insufficiently effective in developing medical leadership or establishing enduring
institutional capacity for an effective, Afghan-sustainable, ANA and ANP Health Care System
(HCS) 2 that supports the Government of the Islamic Republic of Afghanistan (GIRoA) by
enabling accountable Afghan-led security.

Subsequent Measures taken by International Security Assistance
Force (ISAF) and NTM-A/CSTC-A
Subsequent to our field work in Afghanistan, NTM-A/CSTC-A has been moving proactively and
aggressively to strengthen measures aimed at ensuring a successful ANSF transition. Ongoing
actions include:

    •	 Working with CURE International and the ANSF to complete, promulgate and 

       implement the Standards of Care for the ANSF.

    •	 Standing up an Operational Planning Team with the ANSF to establish performance
       milestones and decision points.
    •	 Pursuing the appropriate numbers, skills, and seniority of mentors, as well as requesting
       appropriate pre-deployment training for medical mentors.
    •	 ISAF engaged in delineating the division of responsibility for ANSF healthcare
       development between NTM-S/CSTC-A and IJC; above Corps is the responsibility of
       NTM-A/CSTC-A and Corps and below is the responsibility of IJC.

For detailed discussions of the foregoing observations and recommendations, please refer to the
respective sections in the report.




2
 HCS is used to describe an ANA and ANP health care system that is the appropriate blend of the Force Health
Protection and Combat Health Support system concepts found in existing and accepted military medicine doctrine.

                                                       iv
Recommendations Table


Office of Primary                   Recommendations
              No Additional Comments
Responsibility
                     Requiring Additional          Required at This Time
                                    Comment/Information
NATO Training Mission­              6a, 6c, 7, 8a, 8b, 8c, 11b,   1, 2a, 2b, 2c, 2d, 3a, 3b, 4a,
Afghanistan (NTM­                   13a, 13b, 14a, 14c, 19b, 20   4b, 4c, 5a, 5b, 5c, 5d, 6b, 6d,
A)/Combined Security                                              9a, 9b, 10a, 10b, 11a, 12, 14b,
Transition Command-                                               15a, 15b, 15c, 17c, 18b, 18c,
Afghanistan (CSTC-A)                                              19c

International Security Assistance   17a                           11b, 16, 17d, 18a, 18d, 20
Force (ISAF)

Under Secretary of Defense for      17b, 19a
Personnel and Readiness (USD
(P&R))



Please provide comments by July 14, 2011




                                                v
This Page Intentionally Left Blank




                vi

                            Table of Contents

Executive Summary ……………………………………………………………………………..i


Recommendations Table ………...……………………………………………………………...v


PART I – PLANNING AND EXECUTION ……………...…………………..………………..1


    Observation 1. Class VIII FMS and NTM-A/CSTC-A purchasing processes
                     perpetuate dependence on a U.S. supply chain…………....…..........…...5

    Observation 2. Incorporation of Class VIII supply management under
                     MoD/LOGCOM has not been fully implemented….……………..…….9

    Observation 3. Class VIII FMS acquisition was not properly planned and
                    coordinated with MoD/ANA stakeholders…….…………………….…13
    Observation 4. A defined Authorized Stockage List (ASL) has not been
                    established for the ANA Class VIII supply chain.......………………….17

    Observation 5. The Afghan National Army did not have a standardized list
                    of medications and consumable supplies…..………...…………………21
    Observation 6. ANSF leaders reported a lack of confidence in the quality
                   of pharmaceuticals supplied from MoD purchased Sources…...…...…..25

    Observation 7. The Military Entrance Processing Station (MEPS) lacked vaccines
                    for ANA recruits………….………………...…………………………..29

    Observation 8. ANA medical equipment was not being maintained...…………………33
    Observation 9. Requisitions submitted to FSDs and the National Depot were
                    not acknowledged…….…...……………………………………...…….37

    Observation 10. Unfilled Class VIII requirements were not systematically
                    Captured……………………………………………...…..……….…….39


PART II – ACCOUNTABILITY AND CONTROL MECHANISMS………...…..………..41


    Observation 11. Controls over the receipt, storage, accountability, and distribution
                    of pharmaceuticals and other Class VIII supplies were insufficient
                    to prevent theft, misappropriation, unauthorized use, or improper
                    distribution………...……………………………………………………45
    Observation 12. Ministry of Defense Decrees 4.0 and 4.2 were not effectively
                    implemented or enforced………...…………….…………………….…49
    Observation 13. NTM-A/CSTC-A did not have clear data visibility and
                    accountability for medical logistics contracts and purchase costs….…..53

    Observation 14. Excess Class VIII Medical Logistics Stocks and Equipment are
                    prevalent throughout the system with no evident plan for periodic
                   supply redistribution or disposition……...…….….…………………….57

    Observation 15. Lack of a standard ANA Class VIII warehousing plan.………………..61





                                           vii
PART III – COALITION MEDICAL MENTORING EFFORT……………………...……65

    Observation 16. Lack of defined standards of medical care for ANA and ANP health care
                   systems……….…...…………………………………..…………………71
    Observation 17. Lack of operational planning for ANA medical leadership and
                    institutional capacity development………………………….………….75
    Observation 18. Lack of NTM-A/CSTC-A required medical mentor capability…...……81
    Observation 19. Pre-deployment training and in-country orientation did not
                    effectively prepare medical mentors……….………………………….87
    Observation 20. ANA Medical personnel shortages..……………………………………91

APPENDICES:

    A.   Scope and Methodology …………………………………………………………….95
    B.   Summary of Prior Coverage ………………………………………………………...99

    C.   Organizations Contacted and Visited ……………………………………...………101
    D.   Report Distribution …………...……………………………………………………105
    E.   Background – Afghan National Army and Police Health Care System ……...……107
    F.   Summary of DoDIG Quick-Look of the ANA National Military Hospital …..……113
    G.   Management Comments – NTM-A/CSTC-A and ASD(HA)……………………..115





                                         viii
PART I – PLANNING AND EXECUTION





               1

This Page Intentionally Left Blank




                2

Planning and Execution
Background
A medical logistics system requires elements of planning which in turn allows for adequate
execution of system processes and procedures in order to meet customer needs. Elements for
both planning and execution should include, at a minimum:

   •	 Forecasting of these needs for current and future requirements as they affect acquisition
   •	 Input from customers on equipment and supply needs on a regular basis
   •	 Recording and monitoring receipt, issuance, and on hand quantities in order to meet
      customer needs, forecast for emergency, indicate when re-ordering is necessary, or
      identify shortages that
      re-distribution of
      items can address
   •	 Policies and

      procedures which 

      incorporate these 

      items and ensure

      uniform

      understanding and 

      application by users


What we did
Our assessment looked at the
Afghan National Security
Forces (ANSF) medical
logistics system for these and
related requirements through:
                                 NTM-A/CSTC-A policy requires that all pharmaceuticals they provide to
                                 Afghan National Security Forces be procured through U.S. channels. Here
   •	 Interviews with            a senior member of the DoDIG assessment team is tracking a U.S.
      responsible U.S.           shipment received from the U.S. Army Medical Materiel Center-Europe
      officials in the NATO      (USAMMCE), Pirmasens, Germany. Photograph taken during a site visit to
                                 the ANA Class VIII Warehouse, Kabul, Afghanistan, December 2, 2010.
      Training Mission-
      Afghanistan/Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A),
      in particular members of the Medical Transition Assistance Group (MTAG)
   •	 Interviews with senior Afghan officials in the Ministry of Defense (MoD), Ministry of
      Interior (MoI), and the Afghan National Army (ANA) and Afghan National Police (ANP)
      Surgeons General
   •	 Site visits to ANSF hospitals, including the National Military Hospital (NMH) in Kabul;
      ANP Hospital (Kabul); and Regional Military Hospitals (RMHs) at Kandahar, Mazar-e-
      Sharif, and Heart
   •	 Site visits to depots and warehouses including the National Military Depot (Kabul); ANP
      Warehouse (Kabul); Kabul Regional Military Depot; and Forward Supply Depots at
      Kandahar, Mazar-e-Sharif, and Herat

                                                   3

    •	 Limited testing of items acquired through pseudo-Foreign Military Sales (hereafter
       FMS) 3 shipments and NTM-A/CSTC-A local contracting 4, reconciling quantity shipped
       with that received and on hand or issued to Afghan property records where possible (the
       results of this work are discussed in Part II, Accountability & Control)

What we found
An ANA medical logistics system exists but is currently not sufficient to meet the needs of the
ANA and is not sustainable in the absence of significant continued U.S. and other foreign nation
support. As discussed in
more detail in each
observation to follow,
deficiencies occurred in the
areas of:

    •	 FMS acquisition in 

       terms of needs

    •	 ANSF acquisition of

       Class VIII materiel

    •	 Class VIII materiel 

       under MoD logistics

       management

    •	 Class VIII

       requirements capture 
 Our assessment concluded that the Afghanistan National Army’s medical
                              logistics system is not currently sustainable without substantial
    •	 Defined Authorized 
 continuing support from U.S. or other Coalition Forces. Here is an ANA
       Stockage List
         Class VIII warehouse for pharmaceuticals, supplies, and equipment
    •	 Standardized list of
 located on Camp Stone, near Herat, Afghanistan, December 11, 2010.
       medications and related consumable supplies

    •	 Quality of Pharmaceuticals
    •	 Vaccine supplies for ANA recruits
    •	 Medical equipment maintenance
    •	 Requisition procedures

Summary
Shortcomings in these significant areas of planning and execution indicate the ability of the ANA
to build and maintain a sustainable medical logistics system at its current level of capability is
not feasible in the absence of U.S. and International Community support. Substantial systemic
improvements will be required before the ANA has the necessary capability and can operate with
sustainability.




3
  Pseudo-FMS is the term used for acquisitions using standard security assistance procedures, but in the case of
Afghanistan using Afghan Security Forces Fund (ASFF) appropriated monies rather than host nation funds or U.S.­
provided grants. ASFF funds are provided through the annual DoD appropriations bill; hence, they are Title 10 as
opposed to the standard Title 22 funds normally used for FMS sales and grant.
4
  Local contracting is performed through the Kabul Regional Contracting Center (KRCC).

                                                       4

Observation 1: Class VIII FMS and NTM-A / CSTC-A
purchasing processes perpetuate dependence on a U.S.
supply chain
The reliance upon U.S. funded and purchased Class VIII acquisition has done little to build
organic ANA capacity to handle this responsibility and has perpetuated a reliance on the U.S. (as
the predominant purchaser).

This incapacity has come about because the ANA HCS has been primarily supplied by three
sources of supply and equipment: U.S. Title 10 FMS shipments, Kabul Regional Contracting
Center (KRCC) contracts (generated through NTM-A/CSTC-A) and ANA-funded/ANA­
processed contracts which represent a minority share of the procurements. 5 In addition, MoD
Acquisition, Technology and Logistics (AT&L) does not have significant experience with
medical acquisition, making it problematic for MoD Logistics Command (LOGCOM) 6 to fully
inherit responsibility for 100% of the ANA’s Class VIII requirements.

The ANA is thus currently incapable of autonomously performing this mission which has led to
dependency on the U.S. military’s procurement and acquisition systems and insufficiently
developed ANA capability.

Applicable Criteria
“Report on Progress Toward Security and Stability in Afghanistan and United
States Plan for Sustaining the Afghanistan National Security Forces – Report to
Congress in accordance with sections 1230 and 1231 of the National Defense
Authorization Act for Fiscal Year 2008 (Public Law 110-81),” April 2010 The
document provides detail on the overall U.S. strategy for developing the Government of the
Islamic Republic of Afghanistan (GIROA) and the ANSF, specifically “...the goal is to develop a
self-reliant and professionally led ANSF with the ability to generate and sustain enduring
capabilities through enablers.”

Campaign Plan for the Development of Afghan National Security Forces,
September 20, 2008 The plan’s concept is to develop “…functioning ministries with the
institutional capability to operate independently in both their internal functions and their ability
to interface with the international community.” This capability will develop institutional and
organization expertise in logistics, acquisition, procurement, and related functions to sustain a
viable ANSF.




5
  The exact percentage of line items purchased or dollars executed through each method is not available due to
difficulties encountered in obtaining audit-worthy financial obligation and contract data from all three sources. See
Observation 13.
6
  LOGCOM is responsible for all MoD logistics efforts, and was recently assigned responsibility for Class VIII
materiel.

                                                          5

Discussion
Through interviews with key NTM-A/CSTC-A staff and direct observation at Forward Supply
Depots (FSD), the National Military Hospital (NMH) and Regional Military Hospitals (RMH),
we found that a significant portion of medical supplies and equipment used at ANA facilities and
in ANA warehouses were from U.S. sources, were funded with U.S. dollars, or were obtained
through U.S. procurement methods. Continued multi-million dollar shipments of vaccines,
pharmaceuticals, supplies and equipment from U.S. acquisitions are necessary for financial
reasons but do not further the goal of creating an autonomous ANA Class VIII supply chain
capable of standing on its own. If anything, this supply mechanism perpetuates a dependency
condition wherein the ANA relies to a large measure on the U.S. to sustain the ANA HCS.

By way of contrast, we visited Wazir Akbar Khan Hospital (WAKH), a Ministry of Public
Health (MoPH) funded public hospital in Kabul, Afghanistan. We interviewed the Hospital
Director and Chief Financial Officer to learn how this facility is funded and how Class VIII is
provided to the hospital. The 210-bed WAKH is funded, primarily, through United States
Agency for International Development (USAID) funds given to MoPH. In turn, MoPH provides
funding to two Non-Governmental Organizations (NGOs)--Tech Serv and International Medical
Corps. These two NGOs facilitate the pharmaceutical and medical supply acquisition process
using World Health Organization-approved sources while following Government of Afghanistan
Procurement Law.

The model used to fund WAKH and acquire Class VIII is worthy of further examination by the
CSTC-A staff. It is clear the ANA does not have sufficient funding and will not have sufficient
funding for its HCS for years to come. Nonetheless, an interim step toward building ANA
ownership and decreasing reliance on predominantly U.S. acquisition channels could be
providing funds to MoD, which in turn partners with a third party to facilitate medical
acquisition.

If the ANA does not gain greater control over Class VIII acquisition, it will not be positioned to
provide basic medical logistics support for its HCS. The CSTC-A Campaign Plan is focused on
ANSF autonomous operations at the ministerial level. We interpret this focus to mean that the
ANA Class VIII supply chain should ultimately be an ANA-procured, ANA-funded, and ANA-
controlled function. In order to achieve this end state, NTM-A/CSTC-A must partner with key
Afghan ministerial-level personnel to build a roadmap and capacity building plan so the ANA
can begin to operate functions pursuant to ultimately managing its own independent Class VIII
supply chain.

Recommendations
 1. NTM-A/CSTC-A partner with LOGCOM and OTSG to develop and implement a plan to
 transition, where feasible, Class VIII requirements generation and acquisition processes to the
 MoD.




                                                 6

Management Comments
NTM-A/CSTC-A concurred with Recommendation 1 with the following response.

NTM-A/CSTC-A is taking action to transition requirements generation and acquisition of Class
VIII material/supplies to the MoD. During this transition period, NTM-A/CSTC-A will work to
put in place a capability to procure Class VIII material through local acquisition processes or
through Foreign Military Sales.

Our Response
NTM-A/CSTC-A comments to Recommendation 1 were responsive. No further comments are
required.




                                               7

This Page Intentionally Left Blank




                8

Observation 2: Incorporation of Class VIII supply
management under MoD/LOGCOM has not been fully
implemented
Although the Minister of Defense has issued guidance specifying Class VIII supplies now fall
under the purview of MoD Logistics Command (LOGCOM), this policy has not been applied
across the ANA medical logistics system.

This appeared to result from a lack of endorsement for the policy by the MoD Surgeon General,
refusal to apply it among Forward Supply Depot (FSD) commanders, and lack of MoD
oversight.

As a result, the MoD effort to provide for an integrated MoD logistics system, to include Class
VIII materiel, has not been fully implemented as intended.

Applicable Criteria
MoD Decree 4.0 “Supported and Supporting Unit Logistics Policy and Support
Procedures,” January 2009 This document is the basic MoD policy guidance for ANA
logistics doctrine and guidance. The only specific references to Class VIII responsibilities are
assisting the Office of the Surgeon General (OTSG) in developing medical logistics or inclusion
of medical issues in unit responsibilities.

MoD Decree 4.2 “Materiel Accountability Policy and Procedures,” June 2009 The
document establishes the policies and procedures for the MoD for materiel accounting. It
includes guidance on specific policies e.g. general accounting for expendable equipment and
supplies, and specific procedures e.g. filling out the Property Book.

MoD Order #4448 to establish a new mechanism for logistics accountability,
August 9, 2010 The document directs that the supply depots of the OTSG be transferred to the
Forward Depots of the Logistics Command of AT&L.

Discussion
The Minister of Defense issued an order in August 2010 with the objective of solidifying the
intent of Decree 4.0 such that all classes of supply (including Class VIII) would fall under the
management and oversight of LOGCOM. The original intent of Decree 4.0 was for Class VIII to
be included. However, the MoD Office of the Surgeon General (OTSG) has resisted this
consolidation. As a result, Class VIII has been under OTSG responsibility since 2006. Prior to
the MoD order, all medical FSD Commanders reported through OTSG channels and operated
autonomously from the overall LOGCOM FSD Commander (a line i.e. non-medical, ANA
Officer).

MTAG mentors have provided some Medical FSD Commanders a copy of the MoD letter; at
least one FSD Commander (ANA Colonel) has also received a copy. However, these
commanders are unwilling to implement the change until LOGCOM AND OTSG provide
implementing guidance and communicate this change. According to an NTM-A/CSTC-A

                                                9

official, OTSG is aware of MoD’s letter; however, there is little indication of active OTSG
support of the policy.

The lack of OTSG and LOGCOM coordination and implementing instructions and oversight for
the MoD’s decision has resulted in no actual administrative change for Class VIII support
throughout the ANA. The conditions detailed in this report related to non-adherence of MoD
Decrees 4.0 and 4.2, as they apply to Class VIII materiel, will continue until active OTSG
support of the policy occurs and implementing instructions are disseminated. OTSG continues to
execute control over Class VIII materiel at all levels with only superficial deference to
LOGCOM oversight and control.

The NTM-A/CSTC-A CJ4 and Surgeon should simultaneously work with their ANA
counterparts in advising them to build implementing guidance and provide oversight to ensure
compliance. This guidance should make clear where OTSG lines of responsibility begin and end
for Class VIII funding, requirements generation, acquisition, and management, and re-emphasize
at what levels of ANA these responsibilities exist. Similarly, LOGCOM’s lines of responsibility
must be clearly defined. Finally, once implementing guidance is available, it must be officially
communicated directly from the appropriate chain of command to Corps Commanders, the NMH
Commander, RMH Commanders, Medical FSD Commander and overall FSD Commanders so
no mis-understanding occurs as to the nature and requirements of the guidance. Follow-up
oversight by MoD and U.S. military mentors will be necessary given ANA’s track record of non­
compliance with MoD logistics guidance.

Recommendations
 2a. NTM-A/CSTC-A advise and assist LOGCOM and OTSG to define where LOGCOM and
 OTSG Class VIII responsibilities begin and end.

 2b. NTM-A/CSTC-A advise and assist LOGCOM and OTSG to develop a formal
 implementation plan for LOGCOM assumption of Class VIII responsibility.

 2c. NTM-A/CSTC-A advise and assist LOGCOM and OTSG to formally communicate changes
 in Class VIII support to all levels of the supply chain.

 2d. NTM-A/CSTC-A advise and assist LOGCOM and OTSG to provide follow-up oversight to
 ensure compliance

Management Comments
NTM-A/CSTC-A concurred with Recommendations 2a, 2b, 2c, and 2d with the following
response.

Recommendation 2a. The Minister of Defense signed order #4448 transferring the supply depots
from OTSG to Logistics Command of AT&L in Solar Year 1389 (2010). OTSG, now Medical
Command (MEDCOM), has been and continues to be advised on where their responsibility ends
and Logistics Command (LOGCOM) responsibilities begin. The MEDCOM Commander
publicly acknowledged the move, precipitated by a GS mentor mediated call from the Vice Chief
of the General Staff to reinforce the fact that Class VIII does not belong to MEDCOM. On 25

                                               10

April 2011, NTM-A/CSTC·A facilitated a meeting between the Chief, LOGCOM, and the
Deputy MEDCOM Commander for Administration and Operations. This first ever meeting
clearly laid out the responsibilities of the two organizations with full concurrence.

Recommendation 2b. The implementation and assumption of Class VIII by LOGCOM is
complete. The medical depots in the regions know they now work for the FSD commander and
NMH is getting its support directly from the Class VIII warehouse per Decree 4.0. We continue
to train and mentor the process at every level.

Recommendation 2c. The change has been officially communicated on numerous occasions. See
response 2a. NTM-A/CSTC-A will continue to monitor the situation to determine if a formal
memorandum from the MEDCOM commander is necessary.

Recommendation 2d. Class VIII has been added to the Logistics Validation Team site surveys.
The Logistics Training Advisory Group (LTAG) and Medical Training Advisory Groups
(MTAG) conduct continuous Battle Field Circulations and provide daily follow-up as part of
their mentoring duties.

Our Response
NTM-A/CSTC-A comments to the Recommendations were responsive. No further comments are
required.




                                              11

This Page Intentionally Left Blank




               12

Observation 3: Class VIII FMS acquisition was not properly
planned and coordinated with MoD/ANA stakeholders
NTM-A/CSTC-A medical mentors have only limited coordination with ANA medical units
during the requirements generation process leading to Class VIII FMS acquisitions.

This was due to NTM-A/CSTC-A not having a formal coordination process for FMS
acquisitions to capture customer requirements, validate them, and communicate final plans to
ANA customers.

Not soliciting customer input regarding requirements limits HCS practice and ability to forecast
patient care capacity and creates the effect of critical shortages at all levels of the supply chain.
Conversely, excess and unneeded stocks are ordered because items supplied were often not
needed and stocked in too great a quantity. Finally, if the customer’s true needs are not
accurately identified then an atmosphere of mistrust in the supply chain is perpetuated at every
level.

Applicable Criteria
DoD 5105.38-M “Security Assistance Management Manual,” October 3, 2003 This
document provides policy and procedural guidance on processing security assistance requests,
including FMS. Chapter 5 discusses the FMS case development process and notes “Purchaser
involvement early on in the [Letter of Acceptance] development process is essential to ensure the
final document provides the best “fit” for their requirements. Purchasers should be encouraged
to attend meetings and receive correspondence designed to clarify [Letter of Request]
information...there are many instances where purchaser participation and input are necessary.”

DoD 4140.1-R “DoD Supply Chain Materiel Management Regulation,” May 23,
2003 This document provides guidance on materiel management including “developing
materiel requirements based on customer expectations while minimizing…investment in
inventories [and] selecting support providers on the basis of best value…”

Army Regulation 12-1 “Security Assistance, Training, and Export Policy,” July 23,
2010 This document provides guidance to Army entities involved in security assistance
provision. One section discusses “development of an offer requires a coordinated and tailored
approach based on an in-depth assessment of the maintenance, supply, and training capabilities
of the recipient, the adequacy of its logistical infrastructure, support base, trainable labor base,
and experience with similar equipment.”

Campaign Plan for the Development of Afghan National Security Forces,
September 20, 2008 This document provides an overarching strategy on the development of
the MoD and MoI. The objective is to ensure security sector development efforts are
synchronized among the MoD, MoI and NTM-A/CSTC-A, and the wider International
Community.




                                                  13

Discussion
Ideally, Class VIII requirements are developed within the supply chain, beginning with medical
facility bedside and operating room supply, pharmaceutical and equipment needs. The data
accumulation should continue all the way through the discharge process and outpatient
pharmaceutical dispensing. In addition, depot stockage levels have to be included.

Achieving awareness and buy-in from the stakeholders utilizing Class VIII is paramount.
Requirements generation should begin at the lowest levels of a supply chain. However,
interviews with stakeholders within the ANA Class VIII supply chain indicated that ANA higher
headquarters (OTSG and NTM-A/CSTC-A) decided what and how much to purchase, and how
much to distribute, with little end-user input.

MTAG mentors and ANA medical staff reported little or negligible engagement with either
OTSG or NTM-A/CSTC-A staff prior to large Class VIII FMS procurements and arriving
shipment. NTM-A/CSTC-A medical logistics mentors were not consistently provided advanced
notice of shipments to share with MoD/ANA counterparts. Those few MoD/ANA staff who
were engaged prior to the FMS Letter of Acceptance (LOA) generation were rarely provided
feedback on which requirements would be filled. They were not given the opportunity to justify
their requirements prior to the LOA being locked-in. Rather, MoD/ANA customers had simply
to wait for shipments hoping or assuming all their requirements would be fulfilled, in the
quantities requested, to accomplish their medical supply mission.

Some RMH Commanders had only a $3,000 quarterly emergency pharmaceutical budget to
execute at their facilities. Hence, they were largely dependent on OTSG and NTM-A/CSTC-A
funded acquisitions to support their missions. As one RMH Commander reported, higher
headquarters sends stocks downward implementing “their plan” and not “our plan.”

The absence of detailed electronic patient records, diagnosis and prognosis make it difficult to
quantify the numbers and types of patient encounters throughout the HCS. Critical pathways for
patient care revealing typical supply and pharmaceutical consumption at the patient encounter
level were not available at the RMH or Corps levels. As a result, acquisition planners were
forced to rely on previous purchases as consumption history to determine future buys. The
problem with this method was that customer demands were not accurately captured resulting in
repeated shipments of the same product.

Finally, there is a general attitude among FSD and RMH Commanders that higher headquarters
officials did not trust their experience and expertise and, as such, would not seek their input in
determining their own medical logistic needs. Despite the fact MTAG mentors are on-site at all
levels of the supply chain, senior decision makers do not always include them and their ANA
mentees when established requirements upon which future acquisition decisions would be based.
The phenomenon of “we know best” appears to be ever-present. Conversely, when the basic
MoD Form 14 7 supply request forms were not filled, with no feedback provided to customers,
mistrust of higher headquarters down the supply chain was amplified.

7
    MoD Form 14 is the form used to request materiel of any kind in the MoD logistics system.


                                                         14

Recommendations

 3a. NTM-A/CSTC-A, in coordination with MoD and ANA, build a FMS requirements
 generation process, starting with the lowest levels of RMHs, concluding with RMH Commander
 and appropriate OTSG staff approval.

 3b. NTM-A/CSTC-A, in coordination with MoD and ANA, create a feed-back loop to inform
 RMH and depot staff which requested items will be filled, which will not, and the reason(s)
 why.

Management Comments
NTM-A/CSTC-A concurred with Recommendations 3a and 3b with the following response.

Recommendation 3a. The next FMS case will be based on the ANA Solar Year (SY) 1390
requirements. The SY1390 requirements were built using input from RMH, Corps and below
units, SOF, the ANA, Afghan Air Force, and other units. The ANA will use their 351 million
Afghani SY 1390 budget to buy the requirements they can and request NTM-A/CSTC-A to
purchase the remaining requirements. The SY 1390 requirements were sent to the RMH so they
could re-validate and have the opportunity to provide feedback before any purchases are made.
NTM-A/CSTC-A is directing mandatory logistics training for all mentors so they understand the
process.

Recommendation 3b. The Logistics Support Operations Center (LSOC) in coordination with
NTM- A/CSTC-A is developing an automated system to pass the status of parts on-order through
the chain of command for the due-in date. Additionally, for the feed-back loop, LSOC created a
MoD Form 14 Tracker that units can reference to make sure their MoD Form 14s were received
and submitted to the Class VIII warehouse. LSOC also created a customer service line for
customers to check on status of requisitions. The ANA and mentors work together to utilize the
system to check on the status of their MoD Form 14s.

The system exists in the Decrees; the mentors encourage their mentees to use the proper forms
according to their Decrees. Customers in the ANA use the MoD Form 14 process to request
items as per the ANA Decrees. If less than the full amount on the MoD Form 14 is available,
then the logistics nodes (i.e. FSDs, Corps G4s, FSG, and LSOC) use a MoD Form 2 (Stock
Accounting Record) to record the issues and receipts. This is a basis to audit for materiel
accountability, distribution for arriving materiel due-in, and a means to periodically validate due-
in demands with each supporting depot. In conjunction with the MoD Form 2, logistics nodes
use a MoD Form 1298 (Due-Out Log) to establish a record of the materiel/stocks owed to a
supported unit until all requests are completed/completely filled with stock as requested. The
logistics nodes retain the MoD Form 1298 with the MoD Form 2 that it is associated with. Items
not available through the supply system, if deemed required, are acquired through NTM­
A/CSTC-A FMS for Foreign Military Sales and/or through NTM-A/CSTC-A Local Acquisition
for local acquisition items as well as through the ANA Procurement Agency. Attached is an
example of the tracking document that shows how they verify/track the MoD 14's.



                                                15

Our Response
NTM-A/CSTC-A comments to the Recommendations were responsive. No further comments are
required.




                                         16

Observation 4: A defined Authorized Stockage List (ASL)
has not been established for the ANA Class VIII supply chain
An ASL is lacking within the ANA logistics chain, which means a baseline listing of Class VIII
standard requirements for HCS operations at all levels is unavailable.

This occurred because NTM-A/CSTC-A, in coordination with MoD and ANA, had not
developed medical ASLs for each respective medically-related facility in the ANA (FSDs, NMH
or RMHs).

The lack of a defined ASL negatively impacts requirements generation (affecting forecasting and
acquisition), and fulfillment (receipt and issuance) processes.

Applicable Criteria
MoD Decree 4.0 “Supported and Supporting Unit Logistics Policy and Support
Procedures,” January 2009 Section 5-1 discusses the concept and use of an ASL in the
MoD logistics system. Section 4-1 speaks to use of “stock records, demand data, and selective
stockage…These elements constitute the Stock Record Accounting (SRA) system…[which]
provides the basis for recommending items for inclusion on the ASL (selective stockage based
on demand criteria).”

DoD 4140.1-R “DoD Supply Chain Materiel Management Regulation,” May 23,
2003 Section C1.3 mandates materiel management goals which include having to “maintain
materiel control and visibility of the secondary inventory down to and including retail 8
inventories.”

Section C.2.1 discusses demand and supply planning, which includes balancing inventory and
customer demand, balancing defined as “actions needed for provisioning new materiel, for
determining peacetime and wartime replenishment stockage levels, and for retaining material
assets.”

Section C.5.3 discusses requisitioning and stresses retail supply activities should have visibility
of the wholesale inventory; submitting requisitions is the prerogative of the submitter; and
priority of demand may be specified.

AP1.1.10 defines cataloging as “the act of naming, classifying, describing, and numbering each
item repetitively used, purchased, stocked, or distributed to distinguish each item from very other
item…[including]…the maintenance of information related to the item and the dissemination of
that information to item users.”




8
 “Retail” is defined as a “level of inventory below the wholesale level, either at the consumer level (directly
supporting customers) or at the intermediate level (supporting a geographic area).”

                                                          17

Discussion
At all levels of the ANA Class VIII supply chain an attitude existed in which there was mistrust
of whether a bona fide need existed for products requested. In addition, MoD Form 14s were
routinely rejected because suppliers at all levels do not have clear guidance on what is and what
is not authorized for issuance to a particular customer.

Our assessment revealed examples in which an FSD Commander rejected a MoD Form 14
supply request for a particular customer because he believed the end user was not qualified to
possess or utilize the drug being ordered. Without established ASLs, these decisions were
unpredictable. Regardless, little feedback was provided to the customer explaining the rationale
and reasoning behind the MoD Form 14 rejection.

Building ASLs (or a similar product) for units at all levels, with maximum order or stock on-
hand authorizations, will help streamline the order fulfillment process, and avoid arbitrary denial
of supply requests. Furthermore, these ASLs will provide the basis for a non-pharmaceutical
formulary/ASL to be utilized by senior acquisition planners. The ASLs will help planners build
forecast templates based on bona fide and authorized need, restoring some level of credibility to
the whole Class VIII supply chain.

Recommendations
 4a. NTM-A/CSTC-A, in coordination with OTSG, develop ASLs for each RMH department and
 pharmacy.

 4b. NTM-A/CSTC-A, in coordination with LOGCOM, develop ASLs and requisition objectives
 for medical FSDs.

 4c. NTM-A/CSTC-A establish an alert system to indicate, based on feedback from medical
 mentors down the supply chain, when MoD Form 14 orders are not filled, and provide this
 feedback to MoD for reconciliation purposes.

Management Comments
NTM-A/CSTC-A concurred with Recommendations 4a, 4b, and 4c with the following response.

Recommendation 4a. The RMHs are in the process of collecting usage data so they can begin to
establish their local inventory levels at the RMH. Each RMH has a contractor who is tasked to
collect that information and have it available by June 2011.

Recommendation 4b. All RMHs and the NMH submitted their SY 1390 requirements.
LOGCOM uses the SY1390 requirements as the starting point for creating the Class VIII ASL.
Upon establishment of the ASLs, Logistics Support Operations Center, and the FSD/Class VIII
warehouses set appropriate requisition objectives in order to help maintain the correct amount of
stock on hand at all times at the FSDs and CLVIII warehouses. Mentors help their mentees to
select the appropriate requisition objectives based on historical data. The FSDs and Class VIII
warehouses use the MoD Form 14 to reorder CLVIII supplies once stock reaches the requisition
objective point.

                                                18

Recommendation 4c. Please reference response 3b.

Our Response
NTM-A/CSTC-A comments to the Recommendations were responsive. No further comments are
required.




                                            19

This Page Intentionally Left Blank




               20

Observation 5: The Afghan National Army did not have a
standardized list of medications and consumable supplies
The medical logistics system does not have an established drug formulary 9, and corresponding
ASL, for medications and related consumables to be stocked at each level of the supply chain in
meeting medical system supply needs. The lack of a medication formulary, along with
consistent collection and reporting of usage data, contribute to a medical logistics system that
lacks standardization and reliability.

As a result, medical treatment facility requests for medications and consumables were not
consistently provided in a timely manner or provided at all. The unreliability of the logistics
system has adversely impacted patient care and led to a widespread lack of confidence in the
logistics capability of the ANA medical care system.

Applicable Criteria
DoD 4140.1-R “DoD Supply Chain Materiel Management Regulation,” May 23,
2003 Section C.2.1 discusses demand and supply planning, which includes balancing inventory
and customer demand, balancing defined as “actions needed for provisioning new materiel, for
determining peacetime and wartime replenishment stockage levels, and for retaining material
assets.” Section C3.1 speaks to sourcing and materiel acquisition including “practices that
promote the quality and cost-effectiveness throughout the supply chain.”

U.S. Army Regulation 40-3 “Medical, Dental, and Veterinary Care,” February 22,
2008 The regulation provides guidance on policies and procedures for selected Medical
Department programs and initiatives. Chapter 11 deals with Pharmacy and Medication
Management, Section 11-2 (a) (1) (c) stipulating “Drug dispensing is based on a formulary
system,”

WHO Model List of Essential Medicines 16th list (updated), March 2010 The
document provides a core list of “minimum medicine needs for a basic health-care system,
listing the most efficacious, safe and cost-effective medicines for priority conditions.” A
complementary list of essential medicines is also provided for priority diseases requiring
specialized diagnosis, monitoring, or care.

Discussion
We found at medical treatment facilities visited that they did not have a catalog of medications
and related consumables available from their supporting FSD; we also noted a similar lack of a
product catalog at the National Military Class VIII depot. Orders for medications were based
upon previous submissions and annual requirements. The process to approve and provide a new
medication or related consumable for future order was not defined.

9
  The American Society of Hospital Pharmacists defines a drug formulary as “A continually updated list of
medications and related information, representing the clinical judgment of physicians, pharmacists, and other
experts in the diagnosis and treatment of disease and promotion of health.” A related system is “An ongoing process
whereby a health care organization…establishes policies on the use of drug products and therapies, and identifies
[those] that are the most medically appropriate and cost-effective to best serve the health interests of a given patient
population.”

                                                          21

The ANA medical treatment facilities visited reported that routine resupply orders were accepted
monthly. Urgently needed items could be ordered and filled, if available at the regional depot.
All regional medical depots reported that it was common not to receive supplies ordered via a
MoD Form 14 for extended periods of time and when supplies were received, quantities
requested were routinely cut.

The common theme articulated was that the medical logistics system was unreliable,
unresponsive, and out of touch with the needs of supported depots and military treatment
facilities. A beginning step in improving support and responsiveness should be the publication of
a catalog of medications and supplies readily available for supply to customers, along with an
instruction that provides guidance on the acquisition of equipment and items not contained
within the catalog.

Recommendations
 5a. NTM-A/CSTC-A, in coordination with the Office of the Surgeon General (OTSG), establish
 a standardized list of needed pharmaceuticals (drug formulary) and related medical supplies. The
 list of medications should be based upon the current National Licensed Drug list promulgated by
 the Ministry of Public Health.
 5b. NTM-A/CSTC-A, in coordination with the OTSG, establish authorized stock lists specific
 to medications that are based on the level of care provided and health care provider input.
 5c. NTM-A/CSTC-A, in coordination with the OTSG, to incorporate a medication requirements
 generation process to obtain suggestions for medication additions and deletions to the standard
 list of medications.
 5d. NTM-A/CSTC-A, in coordination with the OTSG, develop and disseminate product catalogs
 through the ANA supply chain.



Management Comments
NTM-A/CSTC-A concurred with Recommendations 5a, 5b, 5c, and 5d with the following
responses.

Recommendation 5a. A formulary was established for SY1389. OTSO has established a
standardized SY1390 medication formulary and respective quantity requirements per the
attached document. This list is based upon the National list promulgated by MoPH.

Recommendation 5b. ANA is underway with implementing an electronic inventory management
system, CORE IMS. This is a precursor step supporting the establishment of inventory levels for
individual work centers and hospital departments. Pharmacy mentors established ASLs for
pharmaceuticals. Also see response to 4a.

Recommendation 5c. MEDCOM currently coordinates an annual and ad hoc Pharmacy
Therapeutics Committee for generating annual ANA medication formulary updates and


                                               22

respective quantity requirements. This committee has existed since 2006. Original policy
attached.

Recommendation 5d. The Core Inventory Management System (CORE IMS), which is currently
being fielded, has catalog information. 1st FSD, 2nd FSD, 3rd FSD and 4th FSD have the ability
to utilize CORE IMS. Every time a new item is entered into CORE IMS a unique number is
created to identify that item through the material control register. Customers can log into CORE
IMS and print the catalog information. If for some reason the RMH or TMC's can't access CORE
IMS they can get hard copy catalog information from the FSD or National Supply Depot (NSD).

Our Response
NTM-A/CSTC-A comments to the Recommendations were responsive. No further comments are
required.




                                              23

This Page Intentionally Left Blank




               24

Observation 6: ANSF leaders reported a lack of confidence in
the quality of pharmaceuticals supplied from MoD purchased
sources
The general lack of confidence in the quality of medications supplied was a concern raised by
key MoD leaders interviewed.

This perception was due to an ANSF acquisition system which allows for a single decision
maker to disregard recommendations of subject matter experts and choose to select the lowest
cost bid. This can compromise quality, promote user belief that quality medications are
exchanged with lesser quality products for personal profit; and lead to issuance of counterfeit or
expired medications.

The lack of quality pharmaceuticals has both direct and indirect effects including:
   •	 by introducing counterfeit morphine into the supply system, the availability of potent
       morphine cannot be guaranteed
   •	 by introducing expired medications into the supply system, the availability of current
       unexpired medications cannot be guaranteed.
   •	 a lack of confidence throughout the ANSF in the availability of quality pharmaceuticals
       in the treatment of patients

Applicable Criteria
Campaign Plan for the Development of Afghan Military and Police Forces,
September 2008 The plan states that Medical Command is responsible for providing quality
health care to ANA personnel, designated family members and other beneficiaries and for
preparing medical facilities and combat medical units to deliver quality care during times of
peace and war.

WHO Policy Perspectives on Medicines 7 “Effective medicines regulations:
ensuring safety, efficacy and quality,” December 2003 The document discusses the
nature and need for medicine regulation noting “The use of ineffective, poor quality, harmful
medicines can result in therapeutic failure, exacerbation of disease, resistance to
medicines…[and] undermines confidence in health systems [and] professionals…Money spent
on ineffective, poor quality medicines is wasted….”

WHO Model List of Essential Medicines 16th list (updated), March 2010 The
document provides a core list of “minimum medicine needs for a basic health-care system,
listing the most efficacious, safe and cost-effective medicines for priority conditions.” A
complementary list of essential medicines is also provided for priority diseases requiring
specialized diagnosis, monitoring, or care.




                                                25

Discussion
In MoD staff interviews we conducted, concern was expressed regarding pharmaceutical product
quality and also lack of availability of key medications. Lack of confidence in the medical supply
chain was also clearly articulated. The decision to transition from an OTSG-managed logistics
system to a LOGCOM managed logistics system exemplified the level of frustration with
OTSG’s practices.

Acquisition
The current MoD Acquisition, Technology and Logistics (AT&L) Acquisition Agency procedure
for purchasing pharmaceuticals allows for the consideration of quality in the procurement
process. An Evaluation and Selection Committee, which includes pharmacy representation from
the OTSG, is charged with assessing bids on solicitations to ensure the contracted products will
meet quality requirements. During our assessment it became clear that the final decision maker
for selecting contractors exclusively selected the lowest bidders. This was a point of considerable
frustration among MoD/ANA participants involved in contributing to the selection process.

For comparison purposes, we performed an analysis of 4 bids submitted by vendors for a set of
required vaccines and compared them to FMS pricing 10. Vendor source or quality standards for
the vaccines were not specified in any bid. Our analysis showed:

       •	 Vendor bids were all lower than FMS prices except for 1 vendor quote for 1 vaccine
       •	 Quotes ranged from 2% to 79% of FMS pricing
       •	 One vendor was consistently and unusually low in unit pricing in comparison to the other
          vendors (raising the concern of how such prices were possible if obtained through
          legitimate manufacturers)

Given this comparison, AT&L purchasing practices would result in the low cost bidders
receiving the awards. Since the vendors discussed in the above analysis did NOT specify the
source for the vaccines or otherwise indicate the drug met Food & Drug Administration (FDA),
World Health Organization (WHO) or United Nations Children’s Fund (UNICEF) quality
standards, there was a consequent risk that sub-standard vaccines might have entered the ANA
HCS and affect troop health.

The MoPH was able to purchase quality pharmaceutical products at lower cost using
WHO/UNICEF validated sources through the assistance of USAID. Likewise the NTM­
A/CSTC-A mentor team supporting the MoI medical mission was in the process of providing
alternate vendors of vaccines that would provide WHO/UNICEF validated sources at a more
competitive price than the United States Army Medical Material Center, Europe (USAMMCE),
the source of U.S. FMS Class VIII materiel supplied to the ANA. However, the Defense Security
Cooperation Agency (DSCA) directed CSTC-A to only procure vaccines and pharmaceuticals
from US Food and Drug Administration approved sources. The Command Surgeon developed a
waiver request to the DSCA but due to perceived risks for pursuing the strategy within the
command, the waiver package was not forwarded to DSCA.


10
     FMS purchases are required to obtain only FDA-approved drugs or sources.

                                                        26

The Command Surgeon can obtain quality vaccines and pharmaceuticals through regional
distributors at an approximate savings of 40% if granted the waiver. The long term transition
strategy to facilitate the Afghans purchasing their own vaccines and pharmaceuticals would be
enhanced by CSTC-A building the relationship and supply chain with regional vendors now
using Afghan Security Force Funds. Once systematic processes are in place, CSTC-A could then
assist the Afghan National Security Forces (ANSF) to develop a Prime Vendor relationship with
the same regional distributors that meet quality and efficacy standards.

The ability to limit vendor selection to WHO/UNICEF approved vendors will require a mandate
from the Minister of Defense. Such an edict would change the current paradigm of lowest cost to
one of lowest cost from a vendor that must provide pharmaceuticals from WHO/UNICEF
validated sources. This change would restore confidence in the quality of medical supplies and
pharmaceuticals provided through the class VIII logistics chain.

An alternative option to ensure quality would be to continue purchasing annual requirements, as
is the current practice, and conduct potency testing to determine quality. This option would
require the establishment of testing facilities, development of intellectual infrastructure (the MoD
currently does not have this capacity), and lead to increased complexity and oversight of class
VIII management. Use of WHO/UNICEF validated vendors provides a more immediate solution
to resolve quality concerns of pharmaceuticals.

Medication Quality
During site visits to RMHs and FSDs, we observed in one location counterfeit morphine
packages were still in stock. The drug was physically isolated from regular stock in a cabinet
and area that can be physically secured. However, there was no signage or other means to warn
staff not to place the drug back into regular stock, thus ensuring it is not used to fill supply
requests. Similarly, we noted elsewhere expired medications physically separated but still
available for inclusion in the supply system. Medication quality and patient care thus are
impacted if these counterfeit products are issued to requestors and/or there is no quality
assurance program to appropriately manage expired medications.

Recommendations
 6a. NTM-A/CSTC-A advise and assist the Ministry of Defense in the issuance of a mandate that
 limits the selection of sources for pharmaceuticals and medical supplies to WHO, UNICEF, and
 FDA approved sources for central purchases through procurements to assure quality.

 6b. NTM-A/CSTC-A advise and assist the Assistant Minister of Acquisition, Technology and
 Logistics in development and promulgation of policy that ensure contracting procedures dictate
 “quality trumps cost” and not “contract goes to the lowest bidder” when purchasing
 requirements of medications and medical supplies.

 6c. NTM-A/CSTC-A revisit the feasibility of purchasing vaccines through WHO/UNICEF
 approved sources as a more cost-effective alternative without compromising product quality.

 6d. NTM-A/CSTC-A, in coordination with the OTSG, provide timely instructions to report and
 remove counterfeit and expired medications from the logistics chain.

                                                27

Management Comments
NTM-A/CSTC-A concurred with Recommendations 6a, 6b, 6c, and 6d with the following
responses.

Recommendation 6a. NTM-A/CSTC-A continues to advise and assist the Ministry of Defense on
this issue, and this was a topic of discussion during our recent Program Management Review.
The desired outcome of this mandate would be to limit the selection of sources for
pharmaceuticals and medical supplies to vendors that are USAID approved sources. USAID,
through these vendors already provide pharmaceuticals to the Ministry of Public Health in
Afghanistan.

Recommendation 6b. CSTC-A met with the Assistant Minister of Acquisition Technology and
Logistics to discuss how our Acquisition Teams could work more closely together to further
develop the ANA Acquisition and Procurement Strategy. The Assistant Minister designated BG
Wakil (Head of the ANA Acquisition Agency) as our point of contact for CSTC-A to work on
the further development of procurement strategy and policy. We continue to advise BG Wakil on
both procurement policy and purchasing requirements for medications and medical supplies. Our
point of view is that GIRoA Procurement Law 2008, Articles 18, 19 and 23 all address this issue
and allow exceptions to the low bid contract direction for procurement.

Recommendation 6c. NTM-A/CSTC-A concurs with this recommendation and is taking action to
determine the feasibility of US pseudo-FMS to purchase vaccines through non-FDA approved
sources to possibly include USAID, WHO and UNICEF approved sources.

Recommendation 6d. There is language in the update to Decree 4.0 that gives units instructions
on how to turn in and destroy expired items. If there are items identified as counterfeit the Class
VIII NSD and FSD will inform their customers and will issue instructions on what to do IAW
with Decrees. We continue to train and mentor the process at every level.

Our Response
NTM-A/CSTC-A comments were responsive. We request a six-month update on progress
towards implementation of Recommendations 6a and 6c.




                                                 28

Observation 7: The Military Entrance Processing Station
(MEPS) lacked vaccines for ANA recruits
MEPS lacked adequate types and numbers of vaccines 11 for inoculation of ANA recruits.

This shortage was due to insufficient supplies available at local depots even though the National
Medical Depot had sufficient stocks on hand.

The effect of vaccine shortages is to put ANA recruits at risk for infectious disease and increased
risk for spread of communicable disease due to the close quarters in which recruits reside.

Applicable Criteria
Campaign Plan for the Development of Afghan Military and Police Forces dated
September 2008 The plan states that Medical Command is responsible for providing quality
health care to ANA personnel, designated family members and other beneficiaries and for
preparing medical facilities and combat medical units to deliver quality care during times of
peace and war.

DOD Instruction 6025.19 “Individual Medical Readiness,” January 3 2006 The
instruction provides “defined, measurable medical elements” of medical readiness. Section E­
3.2 specifies immunization status as one of those elements and notes “Immunizations effectively
prevent infectious diseases in the deployed as well as non-deployed environments.” The section
also requires immunizations should be monitored and kept current, and specifies six standard
vaccines for use.

Discussion
Immunization of the fighting force is a force multiplier which reduces the incidence and spread
of communicable disease. It should be a powerful tool in maintaining the health of the fighting
force by lessening the impact of disease. The ANSF has adopted, in general, the practice of
immunization of recruits for these reasons. The current challenge facing both the ANA and the
ANP in the near term was the availability of vaccines and supplies.

During our visit to the Kabul MEPS we discovered that only two of the six mandated
vaccinations were available. According to the medical staff at the clinic, the full complement of
vaccines had not been available for the last three months prior to our site visit. We also
discovered that the RMH Supply Depot and clinic supporting the Herat regional training center
did not have a complete complement of required vaccines.

The shortage of vaccines at the Kabul MEPS exemplified the shortcomings of the ANA medical
logistics system. Needed vaccines and ancillary supplies for the Kabul MEPS were available at
the Kabul Regional Depot and the National Medical Depot but had not been distributed.



11
  According to the Centers for Disease Control & Prevention, vaccines “prevent disease in the people who receive
them and protect those who come into contact with unvaccinated individuals. Vaccines help prevent infectious
diseases and save lives.”

                                                       29

The lack of vaccines at the time of initial training posed immediate and long term health threats
to the ANA. Recruits live in close quarters, which provide the necessary conditions to spread
communicable disease. The availability of vaccines at all training sites allow for early initiation
and completion of required inoculation schedules, a central point of vaccine administration and
benefit for the larger community.

The U. S. Army Medical Material Center, Europe (USAMMCE) has been the supply source for
ANSF vaccine requirements. Vaccines through USAMMCE come at a premium cost.
Acquisition of vaccines for the ANSF in the future should consider alternate sources that meet
WHO/UNICEF quality standards at reduced cost. The NTM-A/CSTC-A medical mentor team
has sought to identify alternate sources and develop the ANA acquisition capability to support
vaccine requirements.

A related issue is the need to have available all necessary ancillary supplies (tuberculin needles,
alcohol swabs) to correctly administer the vaccines. Sufficient consumable supplies should be
included in all vaccine orders based on total doses ordered for administration.

Recommendations
 7. NTM-A/CSTC-A mentor the OTSG to identify vaccine requirements (projected needs) and
 ancillary requirements (tuberculin syringes, alcohol pads) and ensure required supplies are on
 hand or shipped in advance of need.




Management Comments
NTM-A/CSTC-A concurred with Recommendation 7 with the following response.

The MTAG preventive medicine section is in the process of mapping the ANA vaccine process
and identifying the points of failure. CLVIII is working on establishing a vaccine Authorized
Stockage Listing (ASL) based on the SY 1390 requirements. The ASL is used to help maintain
the proper CLVIII items on hand at the lowest levels (NMH/ RMH/ regional CL VIII
warehouses).

There is an approved SY 1390 vaccine distribution plan that covers all ANA sites. MEDCOM
Chief of Preventive Medicine (PM) receives monthly updates from all the Corps and training
sites. MTAG PM is going out to the sites verifying that they have the vaccine that they say they
have and then tracing where the breakdown is occurring. There is some confusion with the MoD
14 process in the Regions. Some of them are getting what they order while others are not.

Preventive Medicine and Logistics mentors help their mentees to select the appropriate
requisition objectives based on historical data and work together to educate the field on Decrees
4.0 and 4.2.




                                                 30

Our Response
NTM-A/CSTC-A comments were responsive. We request an update on the process of mapping
the ANA vaccine process and identifying the points of failure when complete. We also request
an update on establishing a vaccine Authorized Stockage Listing (ASL) based on the SY 1390
requirements when the ASL is finalized.




                                             31

This Page Intentionally Left Blank




               32

Observation 8: ANA medical equipment was not being
maintained
There currently exists no medical equipment maintenance program within the ANA HCS.
Many pieces of equipment have not been inspected or calibrated since they were originally
purchased several years ago.

Equipment has not been maintained because the ANA does not possess sufficient Biomedical
Equipment Technicians (BMETs) to fulfill this equipment maintenance mission. NTM­
A/CSTC-A had a medical equipment maintenance contract for 2009-2010, but it was largely
ineffective. A final contributing factor was the lack of a deliberate medical maintenance and
medical equipment visibility system. The current property book was solely paper-based.

The effect of not performing routine maintenance was inoperable equipment at all levels, causing
mission degradation within the HCS.

Applicable Criteria
MoD Decree 4.0 “Supported and Supporting Unit Logistics Policy and Support
Procedures,” January 2009 Section 2-1 discusses maintenance as a logistics function;
section 1-8.a indicates the Logistics & Readiness Directorate is responsible for maintenance
activity; section 1-8.h details the responsibilities of the Central Workshop for equipment
maintenance.
DoD 6010.13-M “Medical Expense and Performance Reporting System for Fixed
Military Medical and Dental Treatment Facilities Manual,” April 7, 2008 The manual
defines biomedical equipment repairs as a function which “provides preventive maintenance,
inspection, and repair of medical and dental equipment. It conducts a systematic inspection of
equipment to determine operational status, and assigns serviceability condition codes to
equipment; and performs scheduled preventive maintenance of medical and dental
equipment…[and] repairs or replaces worn or broken parts; rebuilds and fabricates equipment or
components; modifies equipment and installs new equipment…”

Discussion
All medical equipment items require some level of annual maintenance in accordance with
manufacturer specifications. Many items require routine software updates to ensure continued
operability. Life support equipment items used in anesthesia and intensive care units typically
require routine maintenance every 6 months. In some cases, RMHs do not possess backup units
to rapidly replace inoperable equipment. If the one radiology unit at a RMH goes down then the
diagnostic abilities of the RMH will be significantly hampered.

The RMHs and NMH have broken equipment items in sufficient numbers to negatively impact
the HCS mission. For example, some RMHs reported repairs to radiology equipment taking over
a month to occur. A NTM-A/CSTC-A contract was in place in the previous year to solve this
problem, but was largely ineffective and is no longer in place. A new contract for medical
maintenance was funded by NTM-A/CSTC-A, but has not yet been awarded by KRCC. The
new contract will provide 24-hour medical maintenance support and two BMETs on-site at the


                                               33

NMH and all RMHs. An interim maintenance solution (until the main contract takes effect) is
under development to address immediate issues throughout the regions.

There is little organic ANA or NTM-A/CSTC-A capacity to repair medical equipment. NMH
has BMETs on the Tashkil 12 and some of these positions are filled. However, the NMH
BMETs’ capacity to actually maintain medical equipment is unknown. The volume of broken
equipment at the NMH and anecdotes from staff and MTAG mentors suggest medical equipment
maintenance problems at the NMH.

For RMHs, there is no medical equipment maintenance capacity and BMETs are not on the
RMH Tashkil. Rather, the ANA/G4 Tashkil has placed BMETs on the FSD-level Tashkil, but
these positions are largely unfilled. The FSD-level BMETs are designed to work at the direction
of the Medical FSD Commander and serve a regional role. We recommend dedicated BMETs be
placed on the RMH Tashkil to ensure adequate BMET support to RMHs. The ANA BMET
training program is expected to begin in 2011.

Recommendations
 8a. NTM-A / CSTC-A partner with appropriate ANA directorates to fill FSD Biomedical
 Equipment Maintenance vacancies.

 8b. NTM-A / CSTC-A mentor the OTSG/G1 to adjust the Tashkil in order to place Biomedical
 Equipment Technicians at all RMHs.

 8c. NTM-A / CSTC-A mentor the OTSG to develop a deliberate medical maintenance and
 medical equipment visibility system to supplement the current property book.



Management Comments
NTM-A/CSTC-A concurred with Recommendations 8a, 8b, and 8c with the following response.

Recommendation 8a. The real problem is the lack of an available pool of trained BMET workers
to fill these positions. The most sustainable course of action is the BMET training course, with a
bridging contract to cover the gap between the start of the program April 2011 and when these
students will be able to perform their craft independently. A pending Medical Maintenance
contract(s) will take care of all ANA MEDCOM facilities and will have 2 additional option
years. At present we have interim repairs/maintenance ready to execute at: Darulaman, Gardez,
Herat, Jalalabad and Kabul.

IJC and NTM-A/CSTC-A are working to define equipment maintenance needs for Corps and
below medical assets. This estimate should be complete by July 2011.

Recommendation 8b. The 1390 Tashkil MEDCOM numbers are good overall but need to be
realigned for some locations/positions. Current MEDCOM BMET manning has remained

12
     The Tashkil describes the authorized strength and structure of an ANSF organization.

                                                          34

unchanged since 1389. Regional BMET positions need to be returned to the RMCs. NTM­
A/CSTC-A is working this issue for the 1391 Tashkil.

Recommendation 8c. The Medical Equipment Management Office policy is in the draft stages.
This will augment the base property book and provide a more comprehensive plan to account for
medical equipment located within the facility. NMH currently has a MEMATS (Medical
Equipment Management and Tracking System) program. This program is in the final stages of
development by RANA technologies to track all medical assets within the facility. This will
provide details of life cycle management in addition to a scheduled and unscheduled
maintenance program. The sustainability of this program is being assessed and an alternate off-
the-shelf maintenance/accountability program is being considered at this time.

Our Response
NTM-A/CSTC-A comments were responsive. We request updates when the pending medical
maintenance contract(s) are in place and on the work to define equipment needs for Corps and
below medical assets estimated to be complete by July 2011. We also request an update on
efforts to return regional BMET positions to the RMCs through the SY 1391 Tashkil. We request
a copy of the Medical Equipment Management Office policy when final and an update on the
assessment of the sustainability of the RANA Technologies tracking program versus
consideration for an off-the-shelf program.




                                              35

This Page Intentionally Left Blank




               36

Observation 9: Requisitions submitted to FSDs and the
National Depot were not acknowledged
MoD Form 14s submitted to the National Depot were infrequently acknowledged. MoD Form
14s submitted to FSDs were typically acknowledged only if personally delivered to the FSD by
the customer. As a result, only RMHs co-located with FSDs typically receive order
acknowledgment. When orders go unfilled, customers have no means for discerning the cause
and simply reorder in an attempt to satisfy their requirement.

Based on discussion and observation we believe the apathy of, and lack of accountability by,
depot staffs and the lack of relevant stock at the FSDs and National Depot may be contributing
factors.

The net effect of orders not being acknowledged was customers routinely ordered the same
product repeatedly. A secondary effect was the possibility of multiple shipments eventually
being sent for orders, exacerbating potential excess problems. In the end, not providing standard
customer service responses to requester’s orders created significant uncertainty and lack of
credibility in the supply system when medications and other medical supplies were not received.

Applicable Criteria
MoD Decree 4.0 “Supported and Supporting Unit Logistics Policy and Support
Procedures,” January 2009 Section 2-1 identifies Supply as a logistics function for
“Acquiring, managing, receiving, storing, and issuing all classes of supply….” Section 7-1.a
describes the MoD Form 14 as the basis for materiel requests.

DoD 4140.1-R “DoD Supply Chain Materiel Management Regulation,” May 23,
2003 Section C1.3 mandates materiel management goals which include having to “maintain
materiel control and visibility of the secondary inventory down to and including retail
inventories.” Section C.5.3 discusses requisitioning and stresses retail supply activities should
have visibility of the wholesale inventory; submitting requisitions is the prerogative of the
submitter; and priority of demand may be specified.

Discussion
At the four FSDs co-located with RMHs, ANA staff or NTM-A/CSTC-A mentors report
multiple MoD Form 14s being submitted to the National Depot over the past several months with
no acknowledgement of receipt or action taken by the National Depot. When FSDs follow-up on
orders, timely responses are not forthcoming and in many cases, no response to the follow-up is
received. As a result, customers have no option but to reorder the required goods that have gone
unfilled or to seek alternate means for meeting their requirement.

The practice of repeating unfilled orders could be avoided by the establishment of a reliable
feedback mechanism that acknowledges receipt and acceptance on an order and provides
information on the orders status.




                                                37

Although MoD Decree 4.0 clearly specifies procedures for handling and recording MoD Form
14 denials, NTM-A/CSTC-A and ANA staff we spoke with do not believe the procedures were
followed. Customers at all levels reported poor customer service and a general apathy on behalf
of the National Depot and FSDs.

Recommendations
 9a. NTM-A/CSTC-A, in partnership with LOGCOM, create a feedback mechanism
 acknowledging MoD Form 14 receipt and acceptance.

 9b. NTM-A/CSTC-A, in partnership with LOGCOM, create a process with customers to
 reconcile materiel requests sent to and received by the National Medical and Forward Supply
 depots to avoid distribution of duplicate items.



Management Comments
NTM-A/CSTC-A concurred with Recommendations 9a and 9b with the following response.

Recommendation 9a. Logistics Support Operations Center (LSOC) created a MoD Form 14
Tracker for units to reference to make sure their MoD Form 14s are received and submitted to
the Class VIII warehouse. Additionally, LSOC created a customer service phone line for
customers to check on status of requisitions. At each of the established FSDs, as well, there is a
customer service representative to check on status of requisitions. The ANA and mentors work
together to utilize the system to check on the status of their MoD Form 14s. Additionally, mentor
/ ANA training classes emphasize proper procedures for filling out the MoD Form 14.

Recommendation 9b. In the past, the National Supply Depot (NSD) pushed material to the FSDs
causing duplicate distribution of items; now, the Class VIII NSD does not plan to push any
materiel to the FSDs. Customers request items solely via the MoD Form 14 Process detailed in
the ANA Decrees.

Our Response
NTM-A/CSTC-A comments were responsive. No further comments are required.




                                               38

Observation 10: Unfilled Class VIII requirements were not
systematically captured
Across the Class VIII supply chain, most MoD Form 14s were either “filled or killed” (supplies
not issued), and no record of unfilled demands was maintained at any level. In many cases,
customers first inquired as to what stocks were available at the FSD-level and then placed their
orders, rather than utilizing MoD Decree 4.0 policy allowing for the backordering 13 of supplies
and pharmaceuticals for future delivery.

This condition was caused because a primarily push-based 14 resupply/sustainment process for
Class VIII was in place within the ANA and MoD Decree 4.0 backordering processes were not
implemented.

There are multiple effects of not recording unfilled demands. Primarily, this situation created
problems building true requirements for system-wide Class VIII forecasts. Additionally, RMHs,
FSDs and even Corps-level units’ actual Class VIII needs were rarely met. Finally, a general
state of confusion was created because customers at lower levels may assume orders were going
to be filled when in fact they were not.

Applicable Criteria
MoD Decree 4.0 “Supported and Supporting Unit Logistics Policy and Support
Procedures,” January 2009 Section 2-1 identified Planning as a logistics function which is
“based on standard consumption data and policies to meet annual and operational
requirements….” Section 7-3 specifies the form must be returned if a request is denied.

DoD 4140.1-R “DoD Supply Chain Materiel Management Regulation,” May 23,
2003 Section C5.3 speaks to the requisitioning process, noting “Supply sources shall provide
timely status information for each requisition…” The section also speaks to the need to confirm
issues to the item property record; note a materiel denial if insufficient quantities are on hand to
meet a request. Section C5.7 speaks to item accountability and notes “The storage activity is
responsible for the content, changes, and accuracy of the inventory held under its control.”

Discussion
Effective logistics processes require synchronicity between customers and suppliers regarding
what was ordered, what was filled, and what was not filled for each submitted MoD Form 14. It
was expected by customers (when they elected to backorder) that unfilled demands were
recorded by the supplier for future completion when stock became available. As discussed in
Observation 9, MoD Form 14 receipts were not acknowledged nor returned when denials of
requests were decided.




13
   Decree 4.0 defines a backorder as ‘That portion of requested stock not immediately available for issue.” The 

decree specifies procedures for recording backorders for future supply issuances.

14
   The MoD operates a system of sending materiel—requested or not—to FSDs and lower level units, as opposed to 

responding to requests for supplies i.e. a demand-based process.


                                                      39

RMH customers have lost confidence in the ability of the FSDs and National Depot to follow-
through on backorders. Hence, they often ordered only what they knew was available rather than
what was needed. Thus, any forecasting of medical supply needs was based on skewed demand
data.

A responsive supply system based on actual requirements requires that all of the demands are
captured - whether or not the need is filled. A historical based system for identifying
requirements can be effective only if it is supplemented with information on those needs that are
going unmet. By tracking and recording unfilled demands, more reliable requirements based
supply stock decisions may be made for supply need forecasting.

Recommendations
 10a. NTM-A/CSTC-A mentor OTSG to create an RMH-level control mechanism to ensure
 unfilled demands are recorded and tracked at that level.

 10b. NTM-A/CSTC-A partner with MoD LOGCOM to ensure MoD Decree 4.0 and related
 guidance pertaining to tracking supply requests are followed by the Medical FSDs and the
 National Depot now under MoD LOGCOM.


Management Comments
NTM-A/CSTC-A concurred with Recommendations 10a and 10b with the following response.

Recommendation 10a. MoD Form 2, as stated in answer to question 3b and 4c, is used to record
the remaining balance on a MoD Form 14 that is not currently available through the supply
system. MoD Form 2 provides a record of requests/demands and turn-ins. This is a basis to audit
for materiel accountability, distribution for arriving materiel due-in, and a means to periodically
validate due-in demands with each supporting depot. Mentors assist mentees at the RMH-level to
properly use the MoD Form 2.

Recommendation 10b. Mentors at each FSD help the medical ANA soldiers at the Class VIII
warehouse use MoD Decree 4.0 and related guidance pertaining to tracking supply requests
through the following: training sessions, Mobile Training Teams, the Validation Team, and
everyday oversight of mentee actions. Additionally, the FSD mentors ensure that the mentees are
kept informed of changes to MoD Decrees and receive copies in Dari of all guidance.

Our Response
NTM-A/CSTC-A comments were responsive. No further comments are required.




                                                40

PART II – ACCOUNTABILITY AND CONTROL

             MECHANISMS





                 41

This Page Intentionally Left Blank




               42

Accountability and Control Mechanisms
Background
In order to develop the medical support needed to allow the ANA and ANP to transition to
self sustaining security forces, the NTM-A/CSTC-A Commanding General set a goal of
accelerating development of U.S. and ANSF systems for supplying U.S. procured
pharmaceuticals, medical supplies and equipment (Class VIII). To help achieve that goal, on
November 10, 2010, he requested that the DODIG assist by examining U.S. and ANSF
acquisition, distribution, storage, accountability and controls regarding medical equipment and
supplies, particularly pharmaceuticals. On November 16, 2010, we announced an assessment to
determine whether U.S. Department of Defense efforts to develop medical logistics systems for
the ANSF were effective; and whether accountability and control of funding, acquisition, receipt,
storage, and distribution of Class VIII supplies (primarily pharmaceuticals) given to the ANSF
by the U.S or Coalition Forces was adequate.

What We Did
Our assessment teams simultaneously traveled to multiple sites throughout Afghanistan to
examine the various aspects of our stated objectives. We reviewed appropriate records,
including numerous reports,
U.S. and ANSF policy
documents, contracts, and
other relevant electronic or
printed records. We also
interviewed senior U.S.
officials and military
officers, as well as senior
ANSF mentored officials
responsible for Class VIII
supply chain management.
We observed and
photographed logistics and
field operations and
conducted spot checks of
physical “inventory on
hand,” as compared to
inventory records, when such
records were available.         Our assessment teams traveled throughout Afghanistan to meet with
Because all necessary depot     senior ANSF medical officials and their U.S. and Coalition Force
                                mentors in order to assess the controls over pharmaceuticals, medical
inventory records did not       supplies, and medical equipment. Here are assessment team members
exist or were not readily       being transported by a U.S. force protection detail in a Mine Resistant
available, we could not         Ambush Protected (MRAP) vehicle near Herat, Afghanistan,
                                December 11, 2010.
conduct a more
comprehensive examination. Nonetheless, we believe the assessment procedures we applied
provided a reasonable basis for our conclusions.


                                                   43

What We Found
As highlighted by observations 11 through 15, NTM-A/CSTC-A, in coordination with MoD, had
not succeeded in developing a system of accountability and control over the funding, acquisition,
receipt, storage, and distribution of Class VIII supplies (primarily pharmaceuticals) provided to
the ANSF by the U.S. Government or other Coalition Forces. For example, responsible MoD
officials or ANA managers:

   •	 Had not adequately developed or issued the controls, policies, directives, or operating
      manuals needed to enable people to perform their duties.
   •	 Had not properly

      maintained usage data 

      on pharmaceuticals, 

      supplies, or equipment

      as a basis for setting

      accurate requirements to

      make acquisitions.

   •	 Did not always have

      contract, supporting

      documents, or other

      procurement files

      readily available for

      examination.

   •	 Maintained contract and 

      other procurement files

      that were incomplete or

                                  A new Class VIII Inventory Warehouse under construction near the
      had inaccurate or
          National Military Hospital, Kabul Afghanistan, December 6, 2010.
      duplicated data 
           The existing Class VIII warehouse is the green building to the rear.
   •	 Improperly managed          The existing warehouse was poorly lit, not well organized, and did
                                  not have “on-hand” pharmaceutical inventory arranged by location.
      warehouse inventory
      records such as receiving, distribution, and “stock on hand” files, as evidenced by
      documents that were routinely unavailable, missing, or inaccurate.
   •	 Did not remove expired pharmaceuticals, unneeded inventory, or counterfeit inventory
      from stock.
   •	 Maintained warehouses and other storage facilities for pharmaceuticals, supplies, and
      equipment that were not secure or well organized, and were accessible by unauthorized
      personnel.

Summary
Because ANSF medical officials and logisticians did not properly establish requirements for
procurements, or manage or account for Class VIII inventory in accordance with MoD policy,
the United States and its Coalition partners have been purchasing inventory that was not needed.
In addition, Class VIII inventory (primarily pharmaceuticals) provided to the ANSF by the U.S.
Government or other Coalition Forces is at significant risk of theft, misappropriation, or other
illegal acts. Lastly, the medication needed by medical care providers has not been consistently
supplied or provided at all.


                                                  44

Observation 11: Controls over the receipt, storage,
accountability, and distribution of pharmaceuticals and other
Class VIII supplies were insufficient to prevent theft,
misappropriation, unauthorized use, or improper distribution
The ANSF oversight of Class VIII supplies was insufficient to prevent abuse, waste, loss, or
diversion.

This occurred because the ANSF system of accountability and control mechanisms for the
acquisition, distribution, storage, and use of pharmaceuticals, medical supplies, and medical
equipment did not effectively implement MoD and MoI oversight regulations.

As a consequence, there was no assurance that needed medical supplies would reach ANSF
medical facilities and personnel, and be used for their intended health care purposes.

Applicable Criteria
Decree 4.0, Ministry of Defense, Office of the Assistant Minister of Acquisition,
Technology, Logistics, “Supported and Supporting Unit Logistics Policy and
Support Procedures,” January 2009 The decree establishes logistics policy and
procedures for the Afghanistan National Army (ANA) as a basis for introducing, modernizing
and integrating the ANA logistical system with NATO military logistics doctrine. The decree
does not apply to the Afghanistan National Police (ANP), but it is instructive because it is
consistent with widely accepted or standard practice as reflected in such U.S. publications as the
Government Accountability Office (GAO) “Standards for Internal Control in the Federal
Government,” November 1999, and DOD Instruction 5010.40, “Managers’ Internal Control
Program Procedures,” July 29, 2010. The decree requires appropriate officials to develop,
implement, and enforce detailed logistics management policy, processes, and procedures for all
classes of supply, including Class VIII. It also assigns supply chain management and warehouse
operations responsibility for such activities as:

   •	 Developing authorized stockage lists (ASLs);
   •	 Developing medical logistics requirements based on demand data;
   •	 Maintaining accurate accounting and other records;
   •	 Properly receiving, storing, securing, protecting, and distributing pharmaceuticals,
      medical supplies, and medical equipment;
   •	 Conducting periodic inventory examinations to compare stock records to stock physically
      on hand.

Decree 4.2, Ministry of Defense, Office of the Assistant Minister of Acquisition,
Technology, Logistics, “Materiel Accountability Policy and Procedures,” January
2009 The decree establishes materiel accounting policies and procedures for the Afghanistan
National Army. The decree does not apply to the Afghanistan National Police (ANP), but again
is instructive because it is consistent with widely accepted or standard practice as reflected in the
U.S. publications indicated above. The decree assigns responsibility to commanders at all levels



                                                 45

for supervising, controlling, maintaining, and conducting supply management functions,
transactions, and procedures. The decree requires:

   •	 Pharmaceuticals and other Class VIII materiel to be properly safeguarded and used;
   •	 Property records and supporting documents that account for controlled drugs and other
      items which are easily pilfered or marketed in the bazaar;
   •	 Inventory records that include identification data, gain, losses, and balances on hand.
   •	 Periodic 100 percent inventories where all inventory is physically observed and counted.

Discussion
Inquiry of NTM-A/CSTC-A mentors and ANA officials indicated that pharmaceutical and other
Class VIII receiving and issue reports (at the National Military Hospital (NMH); the ANA Class
VIII warehouse co-located with the hospital; and the ANA LOG COM Class VIII warehouse
located near the airport) did not exist or were not readily available. Spot checks of records at all
ANA national and regional hospital locations and supporting depots indicated supplies were
either significantly understated or overstated. Neither NTM-A/CSTC-A mentors nor their ANA
counterparts were able to produce records documenting any previous periodic examinations of
recorded inventory balances against stock physically on-hand.

Pharmaceutical inventory records at all ANA depots did not contain location of the supplies in
the warehouse. Consequently, warehouse personnel relied on memory and could not be certain
whether they could identify all on-hand inventories. In addition, expired drugs and known
counterfeit morphine were improperly stored and comingled with current and authentic stock.
As a result, patients were at risk through improper distribution of expired or counterfeit drugs.

Because responsible MoD and ANA officials did not manage or account effectively for Class
VIII inventory in accordance with Decrees 4.0, and 4.2, pharmaceutical and other inventory were
at significant risk of theft, misappropriation, or other illegal acts.

Records were more readily available at the ANP national hospital and ANP Class VIII
warehouse; however the ANP records were determined to not be entirely accurate. “Stock on-
hand” inventory records did not match actual Class VIII stored at warehouse locations reviewed
by the team.

Additionally, the mentoring of ANSF counterparts at all levels of the medical logistics system
regarding accountability and control measures could be improved. Mentors could be conducting
and reporting their independent periodic assessments of all ANSF oversight measures for Class
VIII stocks and their effectiveness. This would provide visibility of the status of oversight across
the ANSF medical system to senior NTM-A/CSTC-A officials, and contribute to reducing
diversion, loss or corruption.




                                                 46

Recommendation

 11a. NTM-A/CSTC-A mentor MoD and ANA and MoI and ANP officials to establish and
 enforce standard controls over the receipt, storage, accountability, and distribution of
 pharmaceuticals and other Class VIII supplies in order to prevent theft, misappropriation,
 unauthorized use, or improper distribution. Ensure this includes regular independent MoD and
 MoI oversight inspections.

 11b. ISAF direct NTM-A/CSTC-A and IJC medical mentors to regularly inspect the status of
 Class VIII oversight, and report results to the Commander, NTM-A/CSTC-A and Commander,
 IJC, as well as the ANA OTSG and ANP OTSG.


Management Comments
NTM-A/CSTC-A concurred with Recommendations 11a and 11b with the following response.

Recommendation 11a. Accountability was one of the primary reasons for the move of Class VIII
from MEDCOM to LOGCOM. Unlike MEDCOM, which required little to no paperwork to issue
out material, the Class VIII National Supply Depot requires a MoD Form 14 (for standard
requisitions) or Push Letter (for initial fielding). The FSD also requires a MoD Form 14 to
release materiel. When supplies are received a proper inventory is conducted. This change
improved accountability while reducing theft, misappropriation, unauthorized use and improper
distribution. The MoD and MoI IG also inspect regularly.

Recommendation 11b. LTAG mentors provide oversight as part of their daily mentoring at all
levels. The Logistics Validation Team does an assessment quarterly. The MoD and MoI IG also
inspect regularly.

ISAF concurred with Recommendation 11b without further comment.

Our Response
NTM-A/CSTC-A and ISAF comments were responsive. We request a copy of a representative
and recent Logistic Validation Team quarterly assessment.




                                             47

This Page Intentionally Left Blank




               48

Observation 12: Ministry of Defense Decrees 4.0 and 4.2
were not effectively implemented or enforced
Decrees 4.0 and 4.2 provide a framework for Class VIII supply chain management. However,
the medical logistics supply chain is not functioning effectively because ANSF officials are not
developing, implementing or enforcing the framework those decrees provide.

Applicable Criteria
Decree 4.0, Ministry of Defense, Office of the Assistant Minister of Acquisition,
Technology, Logistics, “Supported and Supporting Unit Logistics Policy and
Support Procedures,” January 2009 The decree establishes logistics policy and
procedures for the Afghanistan National Army (ANA) as a basis for introducing, modernizing
and integrating the ANA logistical system with NATO military logistics doctrine. The decree
does not apply to the Afghanistan National Police (ANP), but it is instructive because it is
consistent with widely accepted or standard practice as reflected in such U.S. publications as the
Government Accountability Office (GAO) “Standards for Internal Control in the Federal
Government,” November 1999, and DOD Instruction 5010.40, “Managers’ Internal Control
Program Procedures,” July 29, 2010. The decree requires appropriate officials to develop,
implement, and enforce detailed logistics management policy, processes, and procedures for all
classes of supply, including Class VIII. It also assigns supply chain management and warehouse
operations responsibility for such activities as:

   •	 Developing authorized stockage lists (ASLs);
   •	 Developing medical logistics requirements based on demand data;
   •	 Maintaining accurate accounting and other records;
   •	 Properly receiving, storing, securing, protecting, and distributing pharmaceuticals,
      medical supplies, and medical equipment;
   •	 Conducting periodic inventory examinations to compare stock records to stock physically
      on hand.

Decree 4.2, Ministry of Defense, Office of the Assistant Minister of Acquisition,
Technology, Logistics, “Materiel Accountability Policy and Procedures,” January
2009 The decree establishes materiel accounting policies and procedures for the Afghanistan
National Army. The decree does not apply to the Afghanistan National Police (ANP), but again
is instructive because it is consistent with widely accepted or standard practice as reflected in the
U.S. publications indicated above. The decree assigns responsibility to commanders at all levels
for supervising, controlling, maintaining, and conducting supply management functions,
transactions, and procedures. The decree requires:

   •	 Pharmaceuticals and other Class VIII materiel to be properly safeguarded and used;
   •	 Property records and supporting documents that account for controlled drugs and other
      items which are easily pilfered or marketed in the bazaar;
   •	 Inventory records that include identification data, gain, losses, and balances on hand.
   •	 Periodic 100 percent inventories where all inventory is physically observed and counted.



                                                 49

Discussion
Decrees 4.0 and 4.2 were not fully implemented or enforced because ANSF officials were not
effectively communicating or overseeing their provisions. For example:

   •	 Decree 4.0 stipulates that logistics officers at various levels will assist medical officers in
      developing medical logistics authorized stockage lists (ASLs) and requirements. The
      document further stipulates that officials will develop medical logistic requirements
      based on demand data. However, our interviews with ANSF officials and their U.S.
      mentors indicate that Class VIII requirements are not based on usage data; that needed
      data is not available, and that consequently, the supply chain is providing
      pharmaceuticals and other Class VIII materiel that is not needed.

   •	 Decree 4.0 and Decree 4.2 collectively require that commanders and other officials at all
      levels maintain accurate inventory records that include information on gains, losses, and
      balances on hand, and that inventories be periodically examined to compare records to
      stock on hand. However, our interviews with ANSF officials, personnel, and U.S.
      mentors; as well as spot checks of physical inventory, indicate inventory records do not
      exist or are not readily available, that available records are not accurate, and that there
      were no records to document periodic inventory examination to compare records with
      stock on hand.

In general, poor ANSF Class VIII inventory management and accountability existed because
officials had not developed local standard operating procedures (SOPs) or other detailed
guidance on inventory control, supervision, or oversight. As a result, such documents do not
exist, or are not readily available in forward supply depots or hospitals.

Recommendations
 12. NTM-A/CSTC-A mentor MoD and ANA officials to define and promulgate standard
 operating procedures and other medical materiel control mechanisms to ensure compliance with
 existing inventory management and accountability policies specified by Decrees 4.0 and 4.2.

Management Comments
NTM-A/CSTC-A concurred with Recommendation 12 with the following response.

Recommendation 12. Mentors at each FSD help the MoD and ANA officials use MoD Decree
4.0 and 4.2 through training sessions, the Logistics Mobile Training Team, and everyday
oversight of mentee actions. Additionally, the mentors ensure that the mentees stay informed of
changes to MoD Decrees and receive copies in Dari of all guidance. Standard operating
procedures are implemented, as necessary, at each level. While training was not achieved at the
end user level, that is being corrected within each MTF as well as mandated for all mentors in
"pre-employment" training.




                                                 50

Our Response
NTM-A/CSTC-A and ISAF comments were responsive. No further comments are required.




                                         51

This Page Intentionally Left Blank




               52

Observation 13: NTM-A/CSTC-A did not have clear data
visibility and accountability for medical logistics contracts
and purchase costs
There was no single credible data source that centralized contracts and acquisition
records/transactions that collectively captured all associated costs pertaining to medical material
and equipment for the ANSF. This resulted from several factors:

     •	 MTAG, the unit ultimately responsible for the stand up and sustainable operation of the
        ANA health care system, did not separately and adequately record and track contract
        acquisition activity for Class VIII materials and supplies.
     •	 Contract activity and associated costs were processed by three responsible entities: the
        NTM-A/CSTC-A Security Assistance Office (pseudo-FMS) 15; CENTCOM Contracting
        Command (C3) through its Kabul Regional Contracting Center (contracts using local or
        international vendors and U.S. funds); and the MoD AT&L (Afghan funds for acquisition
        of medical material and equipment).
     •	 As a result, ANA medical logistics disjointed and fragmented contract support
        contributed to its limited efficiencies, poor accountability, and a lack of confidence with
        capturing transactional data.

Applicable Criteria
Memorandum for CSTC-A Staff Directors, “Executing Afghanistan Security
Forces Fund (ASFF) Resources,” March 22, 2010 The purpose of this policy is to
establish procedures for executing the Afghanistan Security Forces Fund (ASFF). This policy is
intended to both enable operational flexibility while simultaneously providing oversight to
ensure transparency and fiscal accountability. The policy codifies the methods and procedures
CSTC-A will use to apply ASFF resources to validated requirements in order to procure goods
and services for generating and sustaining the ANSF.

Joint Publication 4-10, “Operational Contract Support.” October 17, 2008 The
publication establishes doctrine for planning, conducting, and assessing operational contract
support integration and contractor management functions in support of joint operations. It
provides standardized guidance and information related to integrating operational contract
support and contractor management, defines and describes these two different, but directly
related functions, and provides a basic discussion on contracting command and control
organizational options.

The Combatant Commander Logistics Procurement Support Board (CLPSB) is established to
ensure that contracting and other related logistics efforts are properly coordinated across the
entire AOR. This board is normally chaired by a GCC J-4 representative and includes
representatives from each Service component command, combat support agency, as well as other
military and USG agencies or organizations concerned with contracting matters.

15
  Pseudo-FMS is the term used for acquisitions using standard security assistance procedures, but in the case of
Afghanistan, using ASFF appropriated funds for procurements rather than host nation funds or U.S.-provided grants.

                                                       53

Discussion
To obtain a complete picture of all contracts and acquisition activity for medical items, it was
necessary to obtain and combine information from all three contracting entities; as discussed
above.

In response to a Request for Information on medical items acquisitions, including consumables,
medications, and equipment, NTM-A/CTSC-A/MTAG provided a spreadsheet purportedly
listing contract activity. However, this spreadsheet could not be relied upon as either a historical
or current picture of Class VIII acquisitions for several reasons:
     •	 Certain contract and cost data were duplicated up to 36 times creating $23.2 million in
         overstated costs.
     •	 Pseudo-FMS contract costs were not fully captured, understating costs by $45.4 million.
     •	 For FY 2007, 92 of the contract transactions did not have a valid contract identifier.

MTAG subsequently provided four spreadsheets delineating Medical Supply contracts in four
categories: consumables, equipment, services, and construction. While these were an
improvement over the one-size-fits-all spreadsheet, initially provided, there were still errors or
anomalies:
    •	 The total number of pseudo-FMS could not be determined because services contracts
       were listed as “Various” rather than by contract identifier.
    •	 The total value of pseudo-FMS actions was calculated at about $32.5 million when data
       provided by the Security Assistance Office identified $76.4 million in total value of
       procurements.
    •	 Thirty one actions with no valid contract identifier were listed with $9.9 million in total
       costs.

CENTCOM Contracting Command through its KRCC office maintains data on contracts
processed for non-FMS acquisitions, tracking by type of purchase--service, commodity, or
construction. For commodities, tracking does not take place for purchases over $100,000.
KRCC officials offered to provide raw data on contract activity, but needed specific contract
numbers in order to provide accurate total costs. As noted above, MTAG had information on
acquisitions which did not include valid contract identifiers; thus, KRCC was unable to provide
the team cost data for those contract actions they processed.

Current CSTC-A guidance on management of ASFF funds used to generate the ANSF and
sustain the fielded force calls for:

       …a resource strategy with systems and processes that maintains accountability,
       transparency, allocates resources, and has the flexibility to meet operational
       requirements…[including] a clear audit trail for all decisions and actions…

According to MTAG, its responsibilities include:
   •	 managing the medical budget for the ANSF
   •	 managing ANSF healthcare infrastructure development


                                                 54

Accurate information on medical materiel and equipment acquisitions funded by the U.S.
government is essential to meet these stated responsibilities. However, such information was not
available and a centralized, accurate, auditable data source for medical acquisitions does not
exist.

Recommendation
 13a. NTM-A/CSTC-A develop a financial management process that captures ANSF medical
 logistics procurement costs and contracts.
 13b. NTMA/CSTC-A use Commander Logistics Procurement Support Board (Ref Joint
 Publication 4-10, “Operational Contract Support,” October 17, 2008) to ensure that contracting
 and other related logistics efforts are properly coordinated across the Combined Joint Operations
 Area-Afghanistan.

Management Comments
NTM-A/CSTC-A concurred with Recommendation 13a and 13b with the following response.

Recommendation 13a. A holistic capture of information is needed to efficiently and effectively
procure/contract pharmaceuticals, vaccines and medical supplies. CSTC-A is pursuing
procurements from several means to include foreign military financing (FMF), foreign military
sales (FMS), pseudo-FMS, direct funding, and local procurements.

Recommendation 13b. USFOR-A / CCC facilitates the Interagency Combined Joint Logistics
Procurement Support Board (I+6). NTM-A/CSTC-A will ask the I+6 Logistics Procurement
Support Board to have a Medical Logistics review.

Our Response
NTM-A/CSTC-A comments were responsive. We request additional detail on the actions being
taken for the “holistic capture of information” that captures ANSF medical logistics procurement
costs and contracts. We also request updates on the request for a Medical Logistics review by the
I+6 Logistics Procurement Support Board and any subsequent deliberations by the Board.




                                               55

This Page Intentionally Left Blank




               56

Observation 14: Excess Class VIII Medical Logistics Stocks
and Equipment are prevalent throughout the system with no
evident plan for periodic supply redistribution or disposition
Across the ANA health care system (HCS), excess equipment and supplies exist at all levels.
There is no apparent plan for the ANA OTSG, with NTM-A/CSTC-A mentoring, to facilitate
redistribution, disposition or destruction. Hundreds of serviceable pieces of equipment are
sitting in warehouses that could possibly be used elsewhere, but no single source has full
visibility of Class VIII inventory.

The excess equipment and supplies buildup throughout the ANA was caused by poor
requirements generation processes, a “push” supply chain, the general ANSF habit of hoarding,
weak oversight by MoD OTSG, and lack of centralized inventory visibility. Additionally, a
general state of confusion regarding MoD Decree 4.0 applicability regarding excess stock
disposition existed.

Excess items in a supply chain clog warehouses and distribution channels. Additionally, lack of
visibility in a central data base prevents redistribution to units who have a need for the excess
items.

Applicable Criteria
Decree 4.0, Ministry of Defense, Office of the Assistant Minister of Acquisition,
Technology, Logistics, “Supported and Supporting Unit Logistics Policy and
Support Procedures,” January 2009 The decree establishes logistics policy and
procedures for the ANA as a basis for introducing, modernizing and integrating the ANA
logistical system with NATO military logistics doctrine. It is consistent with widely accepted
practice as reflected in such U.S. publications as the Government Accountability Office (GAO)
“Standards for Internal Control in the Federal Government,” November 1999, and DOD
Instruction 5010.40, “Managers’ Internal Control Program Procedures,” July 29, 2010. It
established procedures for the identification, redistribution, and disposal of excess supplies and
equipment, including pharmaceuticals and other Class VIII materiel. The Decree explains;

   •	 Authorized materiel is established by what a unit reasonably needs to accomplish its
      mission.
   •	 Excess is any materiel over and above that which is authorized.
   •	 Units should not accumulate materiel in excess of total authorization and should turn-in
      any excess quantities on hand.
   •	 Stock control includes the process by which officials’ record and account for materiel
      disposal.

Decree 4.2, Ministry of Defense, Office of the Assistant Minister of Acquisition,
Technology, Logistics, “Materiel Accountability Policy and Procedures,” January
2009 The decree establishes materiel accounting policies and procedures for the ANA. It is
consistent with widely accepted practice as reflected in such U.S. publications as the
Government Accountability Office (GAO) “Standards for Internal Control in the Federal
Government,” November 1999, and DOD Instruction 5010.40, “Managers’ Internal Control

                                                57

Program Procedures,” July 29, 2010. It also assigns responsibility to commanders at all levels
for supervising, controlling, maintaining, and conducting supply management functions,
including the identification, redistribution, and disposal of excess supplies and equipment
including Class VIII materiel. The decree:

   •	 Stipulated that commanders at all levels were responsible for turn-in of excess materiel.
   •	 Established procedures for documenting excess supplies and equipment disposal, and
      removing that materiel from property records.

Ministry of Defense, Office of the Surgeon General, “MEDCOM Policy for the
Destruction of Expired Medication,” December 10, 2010 The policy applies to the
ANA and establishes procedures for the identification and disposal of expired drugs. It requires
medical facility commanders to:

    •	 Identify expired pharmaceuticals.
    •	 Turn-in or destroy those drugs
    •	 Ensure that the destruction of drugs is independently witnessed; that the destruction is
        properly recorded; and that relevant documents are properly retained

Discussion
The supply requirements of RMHs and FSDs were not always sought directly. This “push”
supply system, without adequate customer input, led to unneeded supplies and pharmaceuticals
beings shipped, causing quantities of excess materiel to grow over time. Additionally, no
centralized data base oversight and visibility of inventories was available because Core IMS
implementation was immature throughout the supply chain. This hampered OTSG and
LOGCOM ability to understand the reality of supplies on hand and needs across the HCS.

At Mazar-e-Sharif and Herat, the FSDs had optometry equipment on the warehouse shelf, with
no matching healthcare provider skill set at the supported RMH. Additionally, MTAG mentors
at the Herat RMH explained their operating room tables were in disrepair and needed to be
replaced. At the same time, the FSD supporting the NMH had six new operating room tables
that were in stock, were not in use, and could have been transferred. Hence, with sufficient
visibility of serviceable medical equipment, OTSG or LOGCOM could have redistributed these
items to where they were needed.

The medical logistics system, especially for pharmaceuticals, had excess or expired stocks
throughout. MoD policy requires disposal or destruction of expired medicine or excess
Class VIII materiel; however, the policy was not well understood. Some FSD managers believed
expired stocks could be destroyed with the Medical FSD Commander having two internal FSD
witnesses. Other FSDs understood three external/disinterested witnesses were required.

In Herat, the RMH Commander called OTSG during our team’s site visit to ask whether he could
destroy some expired pharmaceuticals and was told he could not. In Kandahar, the Medical FSD
Commander admitted he had the ability and authorization to destroy expired pharmaceuticals.
However, when asked why he would not destroy expired – and completely useless – laboratory


                                                58

reagents, he said he was waiting for OTSG to specifically authorize it or someone from Kabul to
travel to Kandahar and witness the destruction.

Recommendations
 14a. NTM-A/CSTC-A mentor OTSG to build a plan that captures RMH-level excess supplies
 and redistributes to other supporting FSDs.

 14b. NTM-A/CSTC mentor OTSG to implement the Core Information Management System,
 including the centralized data base that identifies medical supplies in the ANA HCS depot
 system.

 14c. NTM-A/CSTC-A mentor MoD to clarify and reinforce policy contained in Decree 4.0
 regarding the disposal of excess and expired material.



Management Comments
NTM-A/CSTC-A concurred with Recommendation 14a, 14b, and 14c with the following
response.

Recommendation 14a. Plans have already been established to move excess supplies from the
regional depots to the Class VIII warehouse. The ANA has agreed to the plan, but getting them
to follow through will be difficult because of cultural resistance to give anything up. NTM­
A/CSTC-A is working with MoD to work through these cultural barriers with a retrograde of bed
pans, an innocuous item with a low likelihood of theft or sensitivity to accusations of corruption,
in Herat. This will assist with mapping the actual process as well as identifying the real points of
friction and resistance to follow through.

Recommendation 14b. 1st FSD, 2nd FSD, 3rd FSD and 4th FSD utilize Core Inventory
Management System (CORE-IMS) to varying degrees. Additionally, by the end of June 2011,
logistics managers at the NMH will use CORE-IMS. The mentors at each logistics node provide
oversight, training, and direction to the mentees to encourage use of the system.

Recommendation 14c. There is new language in Decree 4.0 outlining the steps to be followed for
expired items. Plans have already been established to move excess supplies from the regional
depots to the Class VIII warehouse. The ANA has agreed to the plan but getting them to follow
through will be very difficult because of cultural resistance to give anything up.

Our Response
NTM-A/CSTC-A comments were responsive. We request a six month update on
Recommendations 14a and 14c regarding the effectiveness of the ANA agreed plan for
redistributing and/or disposing of excess and expired material.




                                                59

This Page Intentionally Left Blank




               60

Observation 15: Lack of a standard ANA Class VIII
warehousing plan
RMH pharmacy/medical logistic supplies were not warehoused according to any standardized
plan. This same condition applied to warehouses at the regional FSD and National Depot-levels.

Lack of guidance from MoD OTSG has led to each warehouse being stocked and organized
based on local staff guidance only. There was also a lack of training and education of logistics
staffs at all levels related to warehouse stocking operations.

The effect of poorly organized warehouses was inaccurate inventories and unfilled customer
orders because warehouse staffs were unable to know what they had or locate items on the shelf.
This resulted in inaccurate Stock Record Accounts and Property Book records, negatively
impacting the effectiveness of the entire supply chain.

Applicable Criteria
Decree 4.0, Ministry of National Defense, Office of the Assistant Minister of
Acquisition, Technology, Logistics, “Supported and Supporting Unit Logistics
Policy and Support Procedures,” January 2009 This decree establishes logistics policy
and procedures for the Afghanistan National Army (ANA) as a basis for introducing,
modernizing and integrating the ANA logistical system with NATO military logistics doctrine.
The decree is consistent with widely accepted practice as reflected in such U.S. publications as
the Government Accountability Office (GAO) “Standards for Internal Control in the Federal
Government,” November 1999, and DOD Instruction 5010.40, “Managers’ Internal Control
Program Procedures,” July 29, 2010. The decree requires appropriate officials to develop,
implement, and enforce detailed logistics management policy, processes, and procedures for all
classes of supply, including Class VIII. It also assigns responsibility for supply chain
management and warehouse operations, including:

   •	 Authorized stockage lists (ASLs);
   •	 Medical logistics requirements based on demand data;
   •	 Accurate record keeping and accounting;
   •	 Pharmaceutical, medical supply, and medical equipment receiving, accounting, storing,
      securing, reporting and distribution;
   •	 Periodic inventory examination to compare stock records to stock physically on hand.

Decree 4.2, Ministry of National Defense, Office of the Assistant Minister of
Acquisition, Technology, Logistics, “Materiel Accountability Policy and
Procedures,” January 2009 This decree establishes materiel accounting policies and
procedures for the Afghanistan National Army. It also assigns responsibility to commanders at
all levels for supervising, controlling, maintaining, and conducting supply management
functions, transactions, and procedures. The decree requires:

   •	 Pharmaceuticals and other Class VIII materiel to be properly safeguarded and used;
   •	 Property records and supporting documents to account for controlled drugs and other
      items easily pilfered or marketed in the bazaar;

                                                61

   •	 Inventory records that include identification data, gain, losses, and balances on hand.
   •	 Periodic 100 percent inventories in which all inventory is physically observed and
      counted.

The decree also requires responsible commanders to safeguard pharmaceuticals and other Class
VIII materiel; to ensure Class VIII materiel is properly cared for and used; and to keep accurate
accounting records that allows auditors to track Class VIII materiel receipt and disposition.

Discussion
The ANA warehouse supporting the NMH did not have a standard warehousing plan, or any
other inventory identification system that allowed warehouse personnel to locate stock on hand.
Every FSD we visited had a different warehousing plan. Most FSDs had a basic location code
scheme, but at each site, the location plans varied. For example, some FSDs located items by
generic type (i.e., drugs together, IV products together, bandaging and gauze together), and
others alphabetically or numerically. Consequently, Class VIII storage was haphazard and
disorganized, with personnel relying on memory to find inventory. We observed orders denied –
despite stock on-hand – because warehouse staff could not locate items.

Logistics staffs at the RMH and primarily, FSD-level lacked training in inventory management.
Anecdotally, we heard from MTAG mentors that many warehouse personnel operated based on
their first-hand memory of stock locations. Nonetheless, this was an unreliable system
centralized in the memory of a few personnel. Supplies could not be readily found to fulfill MoD
14 supply requests. Moreover, their knowledge was not transferable to replacement staff.

Recommendations
 15a. NTM-A/CSTC-A mentor OTSG to build a standard NMH and RMH warehousing plan.

 15b. NTM-A/CSTC-A partner with LOGCOM to build a FSD and National Depot Class VIII
 warehousing plan.

 15c. NTM-A/CSTC-A mentor LOGCOM and OTSG to periodically inspect implementation of
 these plans.


Management Comments
NTM-A/CSTC-A concurred with Recommendation 15a, 15b, and 15c with the following
response.

Recommendation 15a. Either a draft or formalized SOP exists at each storage location at this
time. Although each CLVIII storage facility is physically different, the mentors will work with
the NMH and RMHs logistics leaders to standardize organization in similar matters (i.e.- by
pharmaceuticals, consumables, and bulk items) for storage of Class VIII and to ensure the ANA
at each location can locate stock easier and conduct better inventory management.




                                                62

Recommendation 15b. As stated in Response 15a, either a draft or formalized SOP exists at each
storage location at this time. Although each CLVIII storage facility is physically different, the
mentors will work with the NMH and RMHs logistics leaders to standardize organization in
similar matters (i.e.- by pharmaceuticals, consumables, and bulk items) for storage of Class VIII
and to ensure the ANA at each location can locate stock easier and conduct better inventory
management.

Recommendation 15c. NTM-AICSTC-A will periodically inspect implementation of these plans,
as well as mentor the MoD to conduct inspections.

Our Response
NTM-A/CSTC-A comments were responsive. No further comments are required.




                                               63

This Page Intentionally Left Blank




               64

PART III – COALITION MEDICAL MENTORING

                  EFFORT





                  65

This Page Intentionally Left Blank




               66

Coalition Medical Mentoring Effort
Background
In order to develop the medical leadership and capacity to build ANA and ANP self sustaining
medical support, the NTM-A/CSTC-A training command was tasked to mentor the ANA and
ANP medical leadership and
capacity building efforts at
national level above the
ANA Corps level. The ISAF
Joint Command (IJC) combat
command mentors the ANP
and ANA with their
Coalition forces at the Corps
and below levels. 16 Both
organizations provide
medical mentors in teams
consisting of U.S. and other
Coalition doctors, nurses,
medical specialists and
medical support personnel
from a range of disciplines
and specialties and from all
ranks. The NTM-A/CSTC-A U.S. mentor reviewing documentation with Afghanistan National Army

personnel serve on medical       personnel at a Class VIII warehouse in Herat, Afghanistan,

mentor teams with Afghan         December 11, 2010.

counterparts at the ANA and
ANP national and regional hospitals, medical warehouses, and institutes of medical learning in
the principal cities of Kabul, Gardez, Kandahar, Herat, and Mazar-E-Sharif. The ISAF/IJC
mentors work as embedded training teams with ANA and ANP units deployed at many locations
throughout Afghanistan.



16
   ANA Medical at above Corps includes: ANA Surgeon General, ANA Medical Command consisting of the
Dawood National Military Hospital and its supply depot (Kabul), four regional hospitals and their supply depots
(Gardez, Kandahar, Herat, and Mazar-E-Sharif), and the Armed Forces Academy of Medical Sciences, Allied
Health Professions Institute, and Military Medical Institute

ANA Medical at Corps and below includes: Corps Surgeons, Garrison Clinics, Brigade Surgeons and staff, three
battalion aid stations per combat brigade, one medical company and one medical platoon per Brigade Combat
Service Support Battalion (201st Corp Kabul; 203rd Corps Gardez, 205th Corps Kandahar, 207th Corps Herat; 209th
Corps Mazar-E-Sharif, 215th Corps Shindand); the 111th Division Kabul; a Special Operations Division, an Air
Corps, and a Guard Brigade

The ANP Medical includes the ANP Surgeon General, ANP National Hospital, ANP National Medical Warehouse
(Kabul) and the 303rd Regional Surgeon Mazar-E-Sharif; 404th Regional Surgeon Kandahar, 505th Regional Surgeon
Gardez, and 606th Regional Surgeon Herat


                                                        67

What we did
The assessment team conducted interviews with the U.S. medical mentors and DOD Defense
contractors in Kabul, Gardez, Kandahar, Herat, and Mazar-E-Sharif. We also met with ISAF,
NTM-A/CSTC-A, and ISAF/IJC headquarters staff, and MoD personnel and their mentors. In
addition, we interviewed selected personnel assigned to the Office of the Assistant Secretary of
Defense for Health Affairs /TRICARE Management Activity (OASD (HA)/TMA); U.S. Joint
Forces Command (JFCOM); U.S. Central Command (CENTCOM); U.S. Air Force Central
(AFCENT), Air Combat Command; and the USAF Medical Operations Center. We also
interviewed the Program
Manager of the Afghanistan
Healthcare Sector Reach
Back Project at the Center
for Disaster and
Humanitarian Assistance
Medicine (CDHAM),
Uniformed Services
University of the Health
Sciences (USUHS).

The assessment team
reviewed documents relating
to International Standards,
International Professional
Affiliations, Department of      U.S. mentors with Afghanistan National Army personnel in
Defense Instructions, Joint      Mazar-E-Sharif, Afghanistan, December 5, 2010.

Publications, Service Instructions, Campaign Plans, and Operational Orders, Standard Operating
Procedures, and contractual documents.

In the field, our team reviewed the effectiveness of medical mentoring efforts to develop an
ANA and ANP medical (Force Health Protection 17, Combat Health Support 18) health care
system (HCS) 19, that meets NTM-A/CSTC-A’s defined 2014-16 end-state for ANSF Healthcare:
A self-reliant, professionally led ANSF health Department which generates and sustains
sufficient police and army medical personnel, infrastructure, and logistics capabilities, with
accountable and effective health services that support the ANSF. In doing so, we discovered
challenges that set conditions which hampered the establishment of a credible medical system.




17
   A Force Health Protection (FHP) system consists of total force health protection by integrating a) Human
performance enhancement; b) Health surveillance, intelligence, and preventive medicine; c) Casualty management;
d) Patient movement; e) Medical logistics and infrastructure support ; f) Command and control.
18
   A Combat Health Support (CHS) system is designed to provide health care to soldiers on the battlefield. The
system provides a continuum of care, from the point of injury and/or forward line of own troops through successive
echelons of care, to definitive and rehabilitative hospitals.
19
   HCS is used to describe an ANA and ANP health care system that is the appropriate blend of the Force Health
Protection and Combat Health Support system concepts found in existing and accepted U.S. military medical
doctrine.

                                                        68

What we found
The lack of developed, implemented, and enforced health care standards and a related medical
mentoring model limited the ability of Coalition forces to plan for and execute a mentoring plan,
and therefore to measure progress in developing medical leadership and establishing an enduring
institutional ANSF medical capacity.

There was no evidence of an overarching joint, integrated ISAF-ANSF plan developed by the
MoD, MoI, and MoPH that provided clear direction based on defined medical standards and
which prioritized the medical mentoring effort, which hindered medical system development.

Current Coalition/U.S. medical mentor personnel are provided to NTM-A/CSTC-A from the
Request-for-Forces (RFF), Joint Manning Document (JMD), and most strikingly from the
Combined Joint Statement of Requirements (CJSOR) process. However, this provided only half
the authorized mentors, which was insufficient to effectively carry out the mission to support the
timely development of the ANSF medical system.

Medical mentors were mismatched with their roles and responsibilities. There was a lack of
medical mentors with army-based medical doctrine experience assigned to key positions. Rank-
mismatches between medical mentors and Afghan counterparts created mentoring difficulties.
Specialized medical mentors were assigned to mentor positions that did not require their level of
expertise. Medical mentors were assigned to mentor highly trained/highly qualified Afghans and
therefore the mentoring was of questionable best value. Medical mentors reported their actual
mentoring time was limited to approximately 20 hours per week due to lack of availability of
Afghan medical personnel.

Afghan medical personnel actually assigned and present for duty were fewer than authorized in
the Tashkil, and therefore insufficient to provide effective medical care to the ANA, especially at
the Corps commands, or develop a sustainable health care system in the prescribed timeframe.

Pre-deployment training was not provided to U.S. medical mentors, and mentors did not receive
in-country orientation and recurring management guidance during their tours, thus preventing
medical mentors from performing their duties and responsibilities effectively.

Mentor lessons-learned were not being shared real-time across the MTAG mentoring spectrum
and mentors were not being instructed to submit their lessons-learned to Joint Universal Lessons
Learned (JULLS) system for use by future medical mentors.

What has been ongoing since our in-county assessment
DoDIG representatives in-country have continued to monitor ISAF, NTM-A/MTAG, and IJC
progress in shaping the medical mentoring mission. Their efforts to enhance prospects for
success in developing the ANSF medical system transition to sustainability include the following
ongoing actions:

       •	 Working with CURE International and the MoD and MoI to complete, promulgate
          and implement Standards of Care for the ANSF


                                                69

•	 Standing up a joint ISAF-ANSF Operational Planning Team (OPT) to look at the
   entire MTAG mission regarding MTAG’s efforts to develop the ANSF healthcare
   system in conjunction with the MoPH, MoD/ANA and MoD/ANP

•	 Identifying the appropriate numbers, skills, and seniority of mentors, as well as
   requesting appropriate pre-deployment training for medical mentors

•	 Preparing policy delineating the “Division of Responsibility” between NTM­
   A/CSTC-A and IJC for medical mentoring of the ANSF.




                                        70

Observation 16: Lack of defined standards of medical care
for ANA and ANP health care systems
The Afghan National Security Forces (ANSF) lacks clearly defined health care standards and
therefore lack end state objectives for the Coalition mentoring development of the health care
system.

This was because previous efforts by the U.S. interagency and international partners to define
health care standards with the MoPH, MoD, and MoI that would apply to Afghan civilian and
security force medical personnel and facilities did not succeed.

Consequently, without defined health care standards, it has not been possible to provide an
appropriately resourced and focused medical mentoring capability, which has hampered HCS
development.

Applicable Criteria
CSTC-A/NTM-A OPORD 09-137 Assigns Staff Troop to Task for SURG (MED ETT).

HQ ISAF/IJC Standard Operating Procedure 11146 ANSF Health Development,
Corps and Below Establishes a program to guide ANSF Health Development at Corps and
below.

International Committee of Military Medicine (ICCM) Ensures medical services
personnel have the means to work together, using similar practices, in operations involving
international cooperation.

Joint Commission International (JCI) Outlines standards and evaluation methods
designed to provide quantifiable benchmarks for patient care quality and drive positive changes
for clinical staff, patients and management.

M.C. 326/2 NATO Principles and Policies of Operational Medical Support Guides
nations in developing compatible medical support concepts, plans, structures, and procedures.

DoD 6025.13 Medical Quality Assurance (MQA) in the Military Health Care System
(MHS) Guides the MHS in maintaining active and effective organizational structures,
management emphasis, and program activities to assure quality healthcare throughout the MHS.

DoD 6025.13-R Military Health Systems (MHS) Clinical Quality Assurance (CQA)
Program Regulations Implements the policy guidance concerning quality assurance in the
MHS.

Discussion
In 2006, the Afghan Ministry of Public Health (MoPH), in conjunction with the United States
Agency for International Development (USAID), began the development of the Hospital
Standards Manual (HSM) for Afghanistan. The vision for these standards was to provide a
framework of basic hospital functions and to give guidance for MoPH hospital development and

                                               71

improvement. The intent was for these standards to be adopted nationally in Afghanistan, to
include the MoD and MoI for the army and police medical care systems.

Because of an apparent lack of interagency and Afghan consensus, the MoPH standards were not
completed. Since 2006, five ANSF hospitals--four ANA and one ANP--have been built and
equipped in order to provide improved access and higher quality health care to both the ANA
and ANP. Yet, without medical/hospital standards, Coalition medical mentors have been without
clear guidance as to what specific capabilities the ANA and ANP HCS were required to achieve
through their mentoring efforts.

During this assessment, DoDIG personnel found no evidence that health care standards existed in
codified Afghan laws, directives, ministerial decrees, or developed criteria for the ANA or ANP
HCS. Neither were there established metrics or criteria, or the use of established metrics or
criteria, to measure the medical mentoring progress made in developing the ANA and ANP HCS.

The team concluded that the lack of an identified “Standard of Care” has been and is the “root
cause” of many of the current issues that restrain the Command’s efforts to build a sustainable
medical capacity for the ANSF. One of the keys is the need to specifically define what the
standard of care will be, promulgate that standard throughout the ANA healthcare delivery
system, and use the standard to create an oversight program.

Recently, ISAF/SG began to prepare a draft ANSF health care policy in conjunction with NTM­
A/CSTC-A and IJC. The policy will require concurrence with the ANSF (MoD/ANA and
MoI/ANP) for approval, and coordination with the Ministry of Public Health. Final approval will
be required by the Afghan President. The estimated completion time for the draft policy is
approximately June-August 2011.

In addition, NTM-A/CSTC-A previously awarded an approximately $1.57M contract with the
NGO CURE International to establish Operational/Procedural standards for seven medical
facilities: ANA National Military Hospital, the ANP Hospital-Kabul, National Director for
Security Hospital, and four ANA Regional Hospitals. 20 This includes writing a comprehensive
hospital standards manual for use by ANSF medical personnel at their facilities. The manual
will provide standards for the different disciplines and departments within the hospitals,
including but not limited to hospital administration, internal medicine, intensive care unit,
facilities, emergency room, pathology, nursing, blood bank, and surgery.

Cure International is currently conducting hospital inspections of the ANA medical system
beginning with the NMH. Upon the completion of these inspections, the contractor will review
the results and modify the standards accordingly. It was reported by MTAG that the ANA
OTSG approved the use of the Cure proposed standards at the recent Medical Leaders
Conference in Kandahar; however there is no evidence that the Ministers (MoD and MoI) have
yet officially supported this decision. Full support of these ministries for the adoption of medical

20
   The Statement of Work states: Although the standards could potentially encompass all three categories of
Hospital Standards, the completed standards will predominantly involve operational/procedural standards. The
standards will likely need to also include a number of structural standards; the inclusion and development of
clinical standards will be limited.

                                                       72

standards uniformly applied across the ANSF hospital system is a prerequisite for the Coalition
mentoring initiative to progress with the "holistic" approach required to develop a cohesive
enduring ANSF medical capability. The end-state is for the “Cure Standards” to be the ANSF’s
standards with the long range plan to integrate the healthcare for the ANP and ANA into a single
ANSF healthcare system.

Recommendations
 16. ISAF, in coordination with MoD, MoI, and the MoPH, develop and execute plans that
 result in the development, codification, implementation, and enforcement of health care
 standards for the ANA and ANP HCS that are uniformly applied by Coalition medical
 mentors.



Management Comments
ISAF provided the following response to Recommendation 16.

The ANSF are currently working with mentors to implement Tier One hospital standards as
defined by CURE International by contract. Additionally, ISAF is working with JHPIEGO to
examine quality standards that they have developed for MoPH health facilities ranging from
small out-patient facilities to district hospitals (community hospitals) and with HHS (CDC) on
Joint Commission Essentials, a minimum but meaningful and effective validated international
hospital standard for resource constrained environments that MoPH is also reviewing. The ANSF
will ultimately be responsible for the enforcement of these standards. Coalition medical mentors
will utilize these standards as mentoring goals.

NTM-A/CSTC-A partially concurred with Recommendation 16 with the following response.

NTM-A/CSTC-A has the mission for institutional development within the ANA and the ANP
medical systems. The development and execution of health care standards not only with the
ANSF but also across the MoPH is already well under way. The CURE International standards
are being implemented.

Our Response
ISAF and NMT-A/CSTC-A comments to Recommendation 16 were responsive. No further
comments are required.




                                               73

This Page Intentionally Left Blank




               74

Observation 17: Lack of operational planning for ANA
medical leadership and institutional capacity development
ISAF and MoD did not have an implemented integrated operational plan to coordinate their joint
efforts to build an effective ANA health care system.

This was because the necessity to have an overarching ISAF-ANA coherent and synchronized
plan, given the complexity of medical mentoring countrywide, was not fully appreciated by
previous CSTC-A medical leadership. This understanding did not develop over successive
leadership tours, which were short-term.

Consequently, the lack of development plan(s) resulted in uncoordinated and inconsistent efforts
to develop ANA medical leadership and institutional capability. Most policies and guidance were
established by mentors at regional hospitals rather than jointly at national level by ISAF and the
ANA; these mentors did not have operational plans to synchronize their medical mentor
activities with those of Coalition mentors at Corps and below.

Applicable Criteria
Campaign Plan for the Development of Afghan National Military and Police
Forces-Interim, 29 January 2008 Provides an overarching strategy for the development of
the Afghan Security Forces, to include the MoD and Mol.

HQ ISAF/IJC Standard Operating Procedure 11146 ANSF Health Development,
Corps and Below Establishes a program to guide ANSF Health Development at Corps and
below

CSTC-A/NTM-A OPORD 09-137 Staff Troop to Task for SURG (MED ETT)

DoDI 6000.16 Military Health Support for Stability Operations Establishes policy,
assigns responsibilities, and provides instruction for military health support of stability
operations in accordance with authority DoD Directive 5124.02, “Under Secretary of Defense for
Personnel and Readiness (USD (P&R)),” June 23, 2008

Joint Publication 4-02 Doctrine for Health Services Support Delineates requirements
and considerations for the health service support (HSS).

FM 8-10-1 Combat Health Support System Provides an overview of the combat health
support (CHS) system designed to provide health care to soldiers on the battlefield; a continuum
of care, from the point of injury and/or forward line of own troops through successive echelons
of care, to definitive and rehabilitative hospitals.

Discussion
During the DODIG mission, U.S. military medical mentors could not demonstrate that they had
knowledge of any medical system development plan upon which to base their mentoring
activities. They agreed they needed to operate under one central combined plan and strategy
with sufficient guidance for them to be able to implement that strategy. And, the strategy would

                                               75

need to have a defined end-state with respect to medical standards. It was the consensus of the
medical mentors that they have been operating virtually autonomously, that progress across all
five ANA hospitals is uneven, and that the ANA HCS is not being built as a uniform
synchronized system. Rather, they perceived the ANA HCS as having been developed in
“stovepipes”--the National Military Hospital and four stand-alone Regional Military Hospitals.

The team found that the ANA medical mentoring responsibility was divided. Above Corps was
the responsibility of NTM-A/CSTC-A while Corps and below was the responsibility of IJC. IJC
expressed the following concern: “NTM-A/CSTC-A and IJC have clearly divided the battle
space…however in the medical world, a 'division' of battle space between “above Corps” and
“Corps and below” doesn't make all that much sense if the goal is to develop a system… there is
going to be a lot more organizational coordination required.”

Medical mentors at the four regional ANA hospitals agreed that most U.S. and Afghan policy
and operational guidance had been developed at the local medical facility level. This was
necessary since little or no guidance emanated from MoD, the ANA/OTSG, or from NTM­
A/CSTC-A. They also reported that there were other obstacles with U.S. medical mentoring,
which tended to be both insufficiently effective and short-term because:

   •	 ANA medical guidance had not been directed to field medical staff; without that, U.S.
      mentoring generally did not have sufficient weight with Afghan counterparts on its own
      to be effective

   •	 It was difficult to get ANA medical counterparts dedicated to the development of ANA
      HCS when major unaddressed personnel concerns such as living conditions, rotation
      policies, promotions, and separation from families remained major distractions

   •	 NTM-A/CSTC-A mentoring locally developed policy had not been sustainable, usually
      lasting only as long as the medical mentor or medical mentor team’s tour of between six
      to nine months in length

There was consensus among the medical mentors interviewed at all of the sites that a “start over”
phenomena existed with the arrival of each new rotation of medical mentor personnel. The
medical mentors attributed this to the lack of direction and established performance criteria
conveyed by NTMA/CSTC-A, combined with the corresponding lack of guidance received by
their Afghan counterparts.

The medical mentors agreed that they were “working in a vacuum.” One of their primary
concerns was the lack of recurring dialogue with NTM-A/CSTC-A. The mentors stated that
scheduled conference calls were routinely not held by the NTM-A/CSTCA Surgeon. They
attributed their requirement to have to “learn the same lessons over and over” to their lack of
guidance.

The medical mentors expressed concern that the medical system that was being developed to
support the ANA resembled a “civilian” healthcare system, not an ANA HCS. While the NTM­
A/CSTC-A Surgeons’ staff believed that the “concepts” of U.S. military medical doctrine were

                                                76

understood by the MTAG headquarters staff, they had not been disseminated throughout the
command to mentors. Moreover, these “concepts” were not understood by their respective ANA
counterparts.

If the ANA HCS develops into a system closely resembling a civilian health care system, it will
lack key elements of a military health care system, which goes beyond simply providing
treatment. The ANA HCS system must be broader and include military medical activities
including: screening personnel; medical, surgical, and dental treatment; preventive medicine,
veterinary medicine, medical material and military pharmacy, military medical logistics to
include evacuation of battle field casualties; and scientific and medical research. 21

Medical mentors also expressed concern that their efforts to distribute “best practices” between
mentors at the different ANA medical facilities had not been supported by NTM-A/CSTC-A and
that recommendations for changes in mentoring practices developed at the local level were not
“well received.”

Medical mentors had not submitted “lessons learned” into the Joint Universal Lessons Learned
System (JULLS) nor had they accessed JULLS at any time in regards to their current mission;
actually only a few medical mentors were aware of JULLS. 22

NTM-A/CSTC-A leadership expressed concern about the lack of reach-back capability. There
was no repository of expertise or dedicated support that the forward deployed personnel could
use to establish standards of care, draw on for technical expertise, or use for continuity of
planning. The high rate of turnover, tours as short as six months, drove an extensive need to
develop some type of reach back capability.

Recently, NTM-A/CSTC-A has defined its 2014-16 end-state for ANSF Healthcare: A self-
reliant, professionally led ANSF health department which generates and sustains sufficient police
and army medical personnel, infrastructure, and logistics capabilities, with accountable and
effective health services that support the ANSF. In order to accomplish this goal NTM­
A/CSTC-A realizes it needs to:

     •	 Train Afghan trainers in: laboratory, radiology, physician assistants, biomedical
        equipment technicians, medical non-commissioned officer’s corps, and combat medics

     •	 Accelerate medical leadership development for the ANA and ANP OTSG and MoD and
        MoI

     •	 Build literacy, vocational skills, and English language skills required for sustainable
        medical training

     •	 Inculcate an ethos of stewardship in pharmacy, medical logistics, medical equipment, and
        most important of all, patient caring as highest level of stewardship

21
   In accordance with the International Committee of Military Medicine; Afghanistan is a member state of the
ICMM.
22
   The Joint Universal Lessons Learned (JULLS) is a process established for the collection and dissemination of
observations, lessons learned, and issues (O/L/I) generated by joint operations, exercises, training events, and other
sources. JULLS applies to both the training and operational environments of the Armed Forces of the United States.

                                                         77

   •   Develop enduring institutions, systems, and enablers

   •   Develop a single ANSF Health Department

Recommendations
 17a. ISAF, in coordination with MoD, MoI, and MoPH, develop and implement a joint,
 integrated plan for the development of a sustainable ANSF HCS system consistent with
 established medical standards.

 17b. Under Secretary of Defense for Personnel and Readiness designate a reach-back partner
 institution for the Afghan Armed Forces Academy of Medical Sciences to include the
 “Research-to-Policy-to-Doctrine-to-Training-to-Execution” chain guidance.
 17c. NTM-A/CSTC-A mentor the MoD and ANA/OTSG, and the MoI and ANP/ OTSG to
 ensure ANA/ANP medical support requirements are included in MoD and MoI campaign plans,
 and ANSF field planning and training.

 17d. ISAF enable Coalition medical mentors to share “best practices” across ANSF medical
 facilities and with mentoring teams partnered with ANSF units, and also ensure U.S. mentors
 are able to effectively utilize JULLS “lessons learned” system.

Management Comments
ISAF concurred with Recommendation 17a with the following response.

Concur that there must be an overall GIRoA strategy for ANSF HCS. ISAF, NTM-A/CSTC-A
and IJC will jointly develop a single, integrated campaign plan for the development of a
sustainable ANSF Health Care System and ensure it is properly nested in the overall GIRoA
strategy.

Assistant Secretary of Defense for Health Affairs replying for Under Secretary of Defense for
Personnel and Readiness concurred with Recommendation 17b with the following response.

We agree with the recommendation as written. Assignment of a reach-back partner institution
should take into account other issues raised within the report, namely the primacy of Army
medical support doctrine in the development of the Afghan National Security Forces medical
support capability. The designated organization should be appropriately funded for this new task,
potentially with non-Defense Health Program (DHP) funds, due to the legal restrictions
concerning the DHP.

NTM-A/CSTC-A concurred with Recommendation 17c with the following response.

Working with both headquarters elements on developing robust and sustainable medical
planning and operations capability. Both OTSG (ANP) and MEDCOM (ANA) have been asked
to supply an ANA medical officer to work with NTM-A/CSTC-A and IJC in these arenas. We


                                               78

expect to have a, fully joint effort by the end of May 2011. This team is actively reviewing
requirements and fielding, as well as training.

ISAF and NTM-A/CSTC-A concurred with recommendation 17d with the following response
submitted by NTM-A/CSTC-A.

Please see response # 19c; NTM-A/CSTC-A is already working with Center for Anny Lessons
Learned which has integrated capability with JULLS. In addition, IJC and NTM-A/CSTC-A
have partnered two operations officers to perform site visits to each Region/Zone, work with all
ANSF mentor teams, and assess the best way forward for both Above and Below Corps
mentoring assets.

Our Response
ISAF comments to Recommendation 17a were responsive. We request that a copy of the
integrated campaign plan for the development of a sustainable ANSF Health Care System be
forward when completed.

Assistant Secretary of Defense for Health Affairs comments to Recommendation 17b were
responsive. We request an update on efforts to designate a reach-back partner institution for the
Afghan Armed Forces Academy of Medical Sciences. Please describe what actions you have
taken or plan to take to accomplish the recommendation.

NMT-A/CSTC-A comments to 17c were responsive. No further comments are required.

ISAF and NTM-A/CSTC-A comments to 17d were responsive. No further comments are
required.




                                                79

This Page Intentionally Left Blank




               80

Observation 18: Lack of NTM-A/CSTC-A required medical
mentor capability
The medical mentor program lacked sufficient capability to meet the challenges of developing
ANA medical leadership and institutional capacity.

This was in part because a number of personnel assigned as medical mentors were mismatched
with their roles and responsibilities:

     •	 Insufficient U.S. medical mentors experienced with U.S. Army-based medical doctrine
        were assigned to key ANA/OTSG senior-level positions

     •	 Rank-mismatches between mentors of lower rank and their Afghan counterparts created
        mentoring difficulties

     •	 Specialized medical mentor personnel were being assigned in some cases to mentor
        positions that did not require their high level of expertise

     •	 Some mentor personnel were assigned to highly trained/highly qualified Afghans who
        did not require mentoring assistance

In addition:

     •	 Medical mentors reported their actual mentoring time was limited to approximately 20
        hours per week due to lack of availability of Afghan medical personnel

     •	 NTM-A/CSTC-A had a stated requirement for 309 medical mentor personnel but only
        158 were assigned. The majority of the unfilled positions were supposed to be sourced
        by Combined Joint Statement of Requirements (CJSOR). 23

Consequently, NTM-A/CSTC-A could not provide the mentoring capability required to
effectively develop the ANA medical leadership and institutional capacity development.

Applicable Criteria
CSTC-A/NTM-A OPORD 09-137 This OPORD provides Staff Troop to Task for NTM­
A/CSTC-A Surgeon.

HQ ISAF/IJC Standard Operating Procedure 11146 ANSF Health Development,
Corps and Below Establishes a program to guide ANSF Health Development at Corps and
below.

Joint Publication 4-02 Doctrine for Health Services Support Delineates requirements
and considerations for the health service support (HSS).

23
  The medical mentor personnel described and discussed in this observation is the mentor demographics provided
by NTM-A/CSTC-A at the time they received the Request-for-Information. Mentor demographics vary over time
but not significantly enough to alter these observations

                                                      81

Field Manual 4-0 Combat Service Support Army combat service support (CSS) doctrine
as part of the national-theater CSS system, supports full spectrum operations.

Field Manual 4-02-1 Combat Health Logistics The field manual describes the Combat
Health Logistics support of a Force Projection Army.

Field Manual 4-02.4 Medical Platoon Leaders Handbook Provides information on the
structure and operation of all medical platoons and medical sections that are organic to combat
and combat support battalions and squadrons.

Field Manual 4-02.6 The Medical Company, Tactics, Techniques, and Procedures
Provides information on the employment, functions, and operations of divisional and non-
divisional medical companies.

Field Manual 4-02.06 (FM 8-10-1) Provides information on the employment, functions, and
operations of divisional and non-divisional medical companies and Army divisions

Field Manual 4-02.21 Divisional Brigade Surgeons Handbook Provides information
on the structure and operation of the division and brigade headquarters medical staff.

Discussion
NTM-A/CSTC-A had the ability to influence change within their organization by adjusting the
Request-for-Forces (RFF) and Joint Manning Document (JMD) to the mission; the correct
medical mentor skills needed to be requested and the medical mentors requested needed to align
with tactical-to-strategic Afghan counterparts. Medical mentoring efforts needed to be the
correct balance between developing medical leadership and developing medical institutional
capacity.

During the DODIG mission it was found that only nine of the total 131 NTM-A/CSTC-A U.S
Army, Navy and Air Force medical mentors were U.S. Army personnel. Three were operations
officers and NCOs on the NTM-A/CSTC-A staff and six were nurse and physician assistant
instructors. The development of the ANA HCS requires medical mentoring based on medical
support doctrine, tenets, and instruction comparable to that of the United States Army. It
becomes a challenge for medical mentors to mentor doctrine, tenet, or instruction for the
development of a land-based HCS if land-based doctrine is not one of their skill sets. Therefore,
U.S. Army personnel should be targeted for those key positions in which development of ANA
HCS doctrine, tenet, or instruction is mentored.

Medical mentor mismatches in rank between Coalition mentors and Afghan health care counter­
parts were driving complaints from Afghan army medical personnel.

   •	 NCOs were mentoring Afghan Officers; this ranged from mentoring doctors, dentists and
      pharmacists to mentoring Brigadier Generals



                                               82

     •	 Company Grade Officers were mentoring Field Grade Officer and Flag Officers ranging
        from Lieutenant Colonels to Major Generals
The personnel requests for medical mentors should be carefully aligned with actual needs when
requesting medical mentors. The analysis of the NTM-A/CSTC-A mentoring roster indicated
highly skilled medical providers were filling Joint Manning Document positions on the NTM­
A/CSTC-A staff or mentoring Afghan counterparts with professions that did not require their
skill level as mentors. 24 There were also instances of medical mentors being requested and
assigned who had no Afghan counterpart to mentor.
Medical mentors at the national and regional hospitals expressed the same two concerns; either
they were assigned to mentor a highly trained/highly qualified (“Afghan-Standard” was the
qualifier in many cases), or they were assigned to mentor a doctor, nurse, or other medical
professional who only held the title and was never trained, or was poorly trained, or learned only
from on-the-job training (OJT). 25 Further, there were a high number of ANA Administrative and
Ancillary personnel who had learned through on-the-job-training. The medical mentors
expressed:

     •	 If the Afghans are already trained and qualified, why do they need mentoring?

     •	 If the Afghans are graduating/completing legitimate Afghan education programs but
        cannot operate even at the “Afghan-Standard” in support of the ANA or ANP…what
        consideration should be made to concentrate mentoring at the education-level as a way to
        develop medical force providers?”
The team identified these examples of mentor disconnects at the national and regional military
hospitals:

     •	 An ANA Pharmacist officer who completed Pharmacy School in Afghanistan was being
        mentored by an enlisted Pharmacy Technician

     •	 An ANA Chief of Preventive Medicine/Chief of Internal Medicine, Internal Medicine
        Doctor who had graduated from a Medical School in Afghanistan was being mentored by
        an E-5 Preventive Medicine Technician

     •	 A senior ANA hospital Director for Administration who had graduated from a Medical
        School in Afghanistan was being mentored by an inexperienced O-2 Healthcare
        Administrator who only had six months in the service

     •	 An 0-4 Cardiologist-Internist (highly specialized U.S. Medical Provider) is a physician
        mentor at a Regional Military Hospital.



24
   The Joint Manning Document provides the baseline for JTF HQ staffing and is used for strength reporting,
personnel accounting, awards eligibility determination, base support, and a host of other services and functions.
25
   No mentor could provide hard evidence of a doctor, nurse, or other medical professional who only held the title
and was never trained – only anecdotal evidence.

                                                         83

U.S. medical mentors also were concerned that the actual average daily medical mentoring time
with Afghan counterpart medical personnel was limited to no more than four hours, six days per
week. This is approximately one half of a Full Time Equivalent (FTE) 26.

NTM-A/CSTC-A stated that their medical mentoring business model “…cannot succeed due to a
50% shortfall in personnel strength and limited training.” The majority of the unfilled mentor
requirements were from Combined Joint Statement of Requirements (CJSOR). In addition, the
MTAG staff at NTM-A/CSTC-A headquarters had less than 50% of their authorized personnel.

Recommendations
     18a. ISAF, in coordination with MoD/ANA, assess Coalition medical mentor personnel needs
     based on specific ANA medical standards, once defined, and a corresponding ANA medical
     system development plan.

     18b. NTM-A/CSTC-A review U.S. medical mentor RFF and JMD requests to ensure U.S.
     medical mentors will be appropriate for assignment to Afghan medical counterparts in terms of
     corresponding rank, previous medical training, and experience.

     18c. NTM-A/CSTC-A, in coordination with MoD, identify the causes for the limited time
     spent per day mentoring Afghan medical counterparts in the ANA hospital system and
     implement appropriate adjustments to enhance mentoring effectiveness.

     18d. ISAF request U.S. Army personnel only for assignment to key positions in which
     development of ANA HCS doctrine, tenet, or instruction is mentored. Recommend
     designating these key positions as “U.S. ARMY ONLY” - “NO SERVICE SUBSTITUTION
     ALLOWED.” 27

Management Comments
NTM-A/CSTC-A concurred with Recommendation 18a with the following response.

Current mentor positions at Echelons Above Corps, MOD and MOL medical system are driven
by demonstrated needs in regards to clinical skill set, administration, preventive medicine and
support services (facilities, logistics and biomedical maintenance). Planning is guided by the
2014 transition goal, the development of the Tier 1 Afghan healthcare standards, and maturing
concepts on how to effectively mentor. Our requirements for medical mentors will be provided
to ISAF for review and approval. ISAF concurred noting that they will review and approve these
requirements.

26
   Full-time equivalent (FTE) is a way to measure a worker's involvement in a project. An FTE of 1.0 means that
the person is equivalent to a full-time worker; while an FTE of 0.5 signals that the worker is only equivalent to a
half-time worker.
27
   In accordance with Global Force Management (GFM) Business Rules, it is the COCOM’s prerogative to define
and designate RFF requirements. The COCOM, in this case CENTCOM, defines and designates the skill-set and
Service(s) required associated with each RFF position. JFCOM, as the Global Force Provider, defaults to the RFF
skill-set and Service(s) required defined and designated by the COCOM. If skill-set and/or Service(s) required
cannot be filled, JFCOM will negotiate an acceptable skill-set and/or Service(s) provider with the Services and
COCOM so that the position can be sourced.

                                                         84

NTM-A/CSTC-A concurred with Recommendation 18b with the following response.

The JMD, RFF, and CJSOR are the focus of continual review. The formal review process will
conclude at the end of May after a Requirements Council which will finalize the planning for all
of these positions through 2014 and an evaluation of any identified enduring missions. By June
2011 all position descriptions will be rewritten.

NTM-A/CSTC-A concurred with Recommendation 18c with the following response.

One of the greatest challenges at NMH is staff absenteeism. NTM-A/CSTC-A continues to apply
pressure at key leadership levels throughout the ANA medical system and MOD to address this
chronic problem of accountability.

NTM-A/CSTC-A partially concurred with Recommendation 18d. ISAF did not concur. Their
responses follow.

NTM-A/CSTC-A. MTAG works closely with IJC, who are predominantly US Army personnel.
This cross fertilization of knowledge and experience allows NTM-A/CSTC-A to implement US
Army regulations and policy through Navy and Air Force officers who are more than capable in
mentoring standards of health care and overarching leadership principles.

ISAF. It is true that the present design is based on U.S. Army Medical Department however, it is
not felt that this recommendation is necessary, particularly because there are current plans to
have mentors from other Coalition countries and it will be advantageous to have them.

Our Response

ISAF and NTM-A/CSTC-A comments to 18a were responsive. No further comments are
required.

NTM-A/CSTC-A comments to 18b and 18c were responsive. No further comments are required.

Based on NTM-A/CSTC-A and ISAF responses to 18d we believe that the general intent of the
recommendation is being realized due to the predominance of Army personnel serving at IJC and
working with MTAG. No further comments are required.




                                               85

This Page Intentionally Left Blank




               86

Observation 19: Pre-deployment training and in-country
orientation did not effectively prepare medical mentors.
Pre-deployment training for NTM-A/CSTC-A MTAG personnel presented at four different
CONUS training bases is not focused on the medical advisory training mission. Moreover, upon
arrival in-country, most mentors did not receive initial management orientation or continuing
guidance during their tours.

This occurred because:

     •	 No medical mentoring-specific training has been built into any pre-deployment course

     •	 There was not a program to provide adequate in-country orientation or follow-up 

        guidance and supervision 


NOTE: There has been virtually no change to the medical mentor support shortcomings with
respect to pre-deployment preparation and in-country guidance reported as a result of our last
assessment visit in March 2009. 28

Consequently, the medical mentors were not effectively prepared to understand and assume their
duties and responsibilities, which contributed to sub-optimum performance and a negative
impact on medical mentor personnel morale.

Applicable Criteria
Handbook 09-27 Chapter 14, Afghanistan Security Forces Funds This chapter
explains Congressional limitations to the Afghanistan Security Forces Funds.

Global Force Management Business Rules Coordinates the Military Services policies
and guidance while providing oversight for the allocation of forces.

Discussion
Pre-Deployment Training

NTM-A/CSTC-A medical mentors at the National Military Hospital and all four ANA regional
hospitals reported that their pre-deployment training did not include a medical-specific program
of instruction for medical mentors. Only a few medical mentors thought they were able to
accomplish their medical mentoring mission by relying just on specialty skills and knowledge
gained at their previous home-stations.

The NTM-A/CSTC-A Surgeon reported that the pre-deployment medical mentor training had
once been presented using Afghanistan Security Forces Funds (ASFF) through the Center for
Disaster and Humanitarian Assistance Medicine (CDHAM) Afghan Reach Back Project. This
fledgling initiative consisted of training provided to a Provincial Reconstruction Team (PRT)

28
  SPO report: “Assessment of U.S. and Coalition Efforts to Develop the Medical Sustainment Capability of the
Afghan National Security Forces” dated 10 March 2010.

                                                       87

attending pre-deployment training at Fort Bragg, North Carolina, and another presented at the
basic pre-deployment training course at Fort Riley, Kansas.

These efforts had to be terminated after they were judged to be an inappropriate use of funding,
per Handbook 09-27, Chapter 14: “Afghanistan Security Forces Funds” 29. However, the NTM­
A/CSTC-A Surgeon stated that there was a pressing need for medical specific pre-deployment
training. He recommended this be presented according to a separate and specific Program of
Instruction (POI), mandated for all Medical Training Advisory Group (MTAG) personnel
regardless of mentors’ military service or their sourcing. 30

Additionally, as a separate initiative not related to NTM-A/CSTC-A, OASD/HA developed the
Medical Stability Operations Course (MSOC) taught as a seminar as recent as February 2011 in
San Antonio TX. The MSOC target audience was mid to senior level officers and NCOs
preparing to deploy to a stability operation. The MSOC intent was pre-deployment training for
medical personnel in the areas of stability operations, working with USAID, and cultural
awareness. Currently, the MSOC is awaiting funding to convert the course from a seminar to an
exportable course; possibly computer/web based.

The MTAG has medical mentors distributed across every region of Afghanistan. Essentially
these mentors are required to mentor, advise, partner with, and train healthcare personnel during
the provision of care to the sick or wounded in the battlefield, operating room, intensive care
unit, hospital ward and to support the management of the healthcare system to include all
logistics support.

There is no other NTM-A/CSTC-A mentoring/training requirement where the mentor finds him
or herself in such close partnership with their Afghan counterpart during the performance of their
duties. In addition, training becomes especially necessary given that mentors are generally not
mobilized from training commands nor do they usually have prior experience.

 To be effective, therefore, medical mentors need specific pre-deployment training which focuses
on a range of key factors, among which are that:

     •	 Healthcare in Afghanistan is delivered at a standard significantly below the standard
        mentors have been trained during their careers

     •	 The technology gap that exists between the mentor’s mission delivering of healthcare at a
        U.S. military medical center and the medical mentor’s mission in Afghanistan requires
        they be prepared for this reality and be able to manage their expectations

     •	 Addressing the moral dilemmas that can arise in the medical mentoring experience
        requires training in ethical evaluation, critical thinking/ethical construct role modeling.


29
   The reference specifically cites as unauthorized the use of funds for purchasing items or services used to support
U.S. forces, even if their mission is to train the ANSF.

30
   NTM-A/CSTC-A states that there is a developed POI for Medical Mentor Pre-Deployment training but has not yet 

been able to provide the POI.


                                                        88

   •	 Without understanding Afghan medical terminology specific to their counterparts,
      mentors cannot effectively communicate.

In-Country Orientation
Medical mentors indicated that they had not participated in any in-country orientation upon
arriving in Afghanistan.

The operational leaders at each regional hospital as well as at the NMH believed that there had
been insufficient planning, orientation, and follow-up support for their medical mentoring
mission.

The NTM-A/CSTC-A Surgeon met with selected medical mentors leaders upon their arrival to
Afghanistan. But, medical mentors could not articulate any specific guidance they had received
applying to their individual mentoring mission and its objectives. Orientation, Policy and
Guidance, and other mentoring tools that existed (e.g. the NTM-A/CSTC-A MTAG Mentoring
Handbook) were not commonly known to the medical mentors or utilized during their
deployment tours.

Recommendations
 19a. Under Secretary of Defense for Personnel and Readiness designate the Army Medical
 Department (AMEDD) Center and School or similar institution to be the Center of Excellence
 for MTAG pre-deployment training with an approved program of instruction that is tailored for
 the mission in Afghanistan
 19b. NTM-A/CSTC-A, in coordination with Commander, IJC, provide mandatory medical
 mentor orientation upon arrival in Afghanistan
 19c. NTM-A/CSTC-A ensure medical mentors receive continuous management guidance and
 support during their tours consistent with the Medical Handbook and newly emerging mentoring
 requirements.

Management Comments
Assistant Secretary of Defense for Health Affairs replying for Under Secretary of Defense for
Personnel and Readiness concurred with Recommendation 19a with the following response.

 We concur with the recommendation as written. The designation by USD (P&R) of a service
institution to be a, “Center of Excellence for Medical Training Advisory Group pre-deployment
training,” is a necessary first step to ensure fully trained and qualified service members fill the
senior policy development mentoring positions with the Afghan National Security Forces.
Additional efforts are needed to identify the unique aspects and expectations required for a
successful medical mentoring program. These should be the basis of the measures of
effectiveness that will be used to develop the appropriate training needed for pre-deployment as
well as in-country training. An excellent starting point to develop this training is the Medical
Stability Operations Course, developed by the Defense Medical Readiness Training Institute. It
focuses on the medical aspects of stability operations to include working with the Interagency


                                                 89

partners and consideration of host nation language, culture and beliefs. It will cover many of the
issues identified in the report.

NTM-A/CSTC-A concurred with Recommendation 19b with the following response.

At present, course content and the POI have been modified for pre-deployment and in country
training requirements based on feedback from participants in the Pilot Group and Group 2.
Contacts have been made with plans to create slide presentations with voice over to provide to
pre-deployment training sites so that content delivery is consistent for Medical Team Mentors in
CONUS. Approximately 12 hours of content should be delivered in CONUS with an additional
6 - 8 hours to be completed once the team members arrive in country. Revisions of the
presentations as well as the POI are in progress. After pre-deployment modules are complete,
this content will be exported to pre-deployment training sites for utilization. In - country specific
content, such as wiring diagram, ANA medical logistics, and introduction to the MTAG staff,
will still be taught here when new team members arrive. The primary challenge with respect to
completing these presentations is media services to assist with voice over of the slide
presentations.

NTM-A/CSTC-A concurred with Recommendation 19c with the following response.

All mentors as of 1 March 2011 now report directly to Kabul on entering country for a three day
orientation and guidance session, then engage in ten days hand over training with their
predecessor before beginning their jobs. They are assigned a team leader who manages their
daily duties. Teams have weekly telephone conferences with the Deputy Surgeon, and Team
Leaders send weekly War reports up to the CMD Surgeon's office. The Command Surgeon has
engaged in two battlefield circulations with quarterly BFC planned to each site. The Chief Nurse
has regularly engaged in BFCs, runs weekly VTCs with nurse mentors across Afghanistan, and is
heavily engaged with all nurses at all levels on a regular basis. Subject matter experts such as the
senior Radiologist, senior Lab officer and sale Physical Therapist engage in BFC to perform site
assessments, conduct training, and offer guidance and assistance to mentors as well as local
providers. When feasible, they are accompanied by their chief mentees as a form of train the
trainer. All mentors now also depart from Kabul, and engage with CALL and the MTAG staff to
archive lessons learned and TTPs.

Our Response
Assistant Secretary of Defense for Health Affairs comments to Recommendation 19a were
responsive. We request an update on efforts to designate a service institution to be a Center of
Excellence for Medical Training Advisory Group pre-deployment training. Please describe what
actions you have taken or plan to take to accomplish the recommendation.

NTM-A/CSTC-A comments to Recommendation 19b were responsive. We request a copy of the
POI once revisions are complete.

NTM-A/CSTC-A comments to Recommendation 19c were responsive. No further comments are
required.


                                                 90

Observation 20: ANA Medical personnel shortages
The lack of assigned healthcare personnel significantly limits Coalition effort to provide
effective ANA medical support and to jointly build with the MoD a sustainable ANA healthcare
system.

This has resulted from the inability of the Afghan medical teaching institutions to recruit and
graduate sufficient personnel to meet Tashkil authorizations. And, many of those personnel who
are trained seek to avoid what they perceive as dangerous assignments away from their families.

As a result, ANA medical facilities outside of Kabul, the ANA regional hospitals and the
medical facilities and functions below Corps, suffer from deficiencies in assigned medical
personnel, especially physicians. This limited the medical services provided to Afghan soldiers,
and is hampering development of an effective, sustainable ANA health care system.

Applicable Criteria
HQ ISAF/JC Standard Operating Procedure 11146 ANSF Health Development,
Corps and Below The purpose of this SOP is to establish a program to guide ANSF Health
Development for Corps and below.

Discussion
The medical system that is supposed to support the ANA has significant shortages of Afghan
medical care at the regional hospitals and critical personnel deficiencies in the Afghan military
Corps.

The problem originates with the inability to recruit and graduate enough medical care personnel
and to ensure they are then put into their assigned positions. Recently, NTM-A/CSTC-A and the
ANA OTSG have initiated actions to improve this situation beginning with a regional hiring
program.

Meetings with Afghan Commanders and NTM-A/CSTC-A staff confirmed that medical provider
availability is lacking throughout the ANA, especially outside of Kabul. Regional hospital
commanders and Corps Commanders reported that they did not have sufficient medical
personnel assigned to enable basic required medical care to be provided their soldier patients.

The 205 Corps Commander and Corps Surgeon stated, for example, that they were authorized 50
medical doctors (MD) yet had only two assigned. Moreover, the Corps Surgeon noted that only
MDs could order and provide certain essential medications to their soldiers, which further
underscores this medical logistics problem.
With respect to requirements and assignment of doctors, physician assistants, and nurses on the
SY 1389 Tashkil 31 relating to the National Army Military Hospital, the four regional military
hospitals and the Corps and their sub-commands indicates:



31
     SY 1389 Tashkil and assignment information provided by the ANA GS G-1 and was current as of 10 Oct 10.

                                                        91

                                              Doctors of Medicine (MD)
     Organization        Authorized MDs        MDs On Hand        Percentage of authorized
                                                                       MDs On Hand
  NMH                           171                 136                   79.5%
  Regional Hospitals            140                  78                   55.7%
  Corps and below               319                  55                   17.2%
  Total                         630                 269                   42.6%

                                                       Physician Assistants (PA)
                                                                             Percentage of
  Organization             Authorized PAs             PAs On Hand             authorized
                                                                             PAs On Hand
  NMH                                  0                   41              Over Authorization
  Regional Hospitals                  116                  29                    25.0%
  Corps and below                     351                 182                    51.8%
  Total                               467                 252                    53.9%

                                                                 Nurses
                            Authorized Nurses                                 Percentage of
  Organization                                    Nurses On Hand               authorized
                                                                             Nurses On Hand
  NMH                                 157                   81                   51.5%
  Regional Hospitals                  116                   29                   25.0%
  Corps and below                      35                   16                   45.7%
  Total                               308                  126                   40.9%

The shortages in the number of medical providers actually assigned to ANA hospitals and
combat units versus their defined needs and Tashkil authorizations has led to a unsustainable gap
in the ability to provide necessary medical services support. In effect, the medical care that was
supposed to be provided the ANA was not being provided. Additionally, without Afghan
medical counterparts to mentor, the purpose for medical mentor assignment and the objectives of
the medical mentoring program were being undermined. And, as a result, the Coalition and MoD
may not be able to develop an effective and sustainable ANA HCS within an acceptable
timeframe.

Recommendation
 20. ISAF mentor the MoD to focus on all available opportunities for providing the ANA with
 qualified Afghan medical personnel to fill ANA Tashkil positions to a level acceptable to the
 MoD.

Management Comments
ISAF and NTM-A/CSTC-A concurred with Recommendation 20 with NTM-A/CSTC-A noting
that the recommendation is best directed at the NTM-A/CSTC-A command. NTM-A/CSTC-A
additionally responded as follows.

                                                92
Significant partnered and focused effort to streamline the recruiting and accessions process is
underway; the assessment period to measure effectiveness of these changes will provide initial
data in May 2011.

Our Response
ISAF and NTM-A/CSTC-A responses to Recommendation 20 are responsive. We request that
NTM-A/CSTC-A provide a status update on the results of the assessment period to measure
effectiveness as well as any associated actions planned based on analysis of the assessment
results.




                                               93

This Page Intentionally Left Blank




               94

Appendix A. Scope and Methodology
We conducted this assessment from November 2010 to January 2011 in accordance with the
standards published in the Quality Standards for Inspections. We planned and performed the
assessment to obtain sufficient and appropriate evidence to provide a reasonable basis for our
observations and conclusions based on our assessment objectives. Site visits in Afghanistan
were conducted from November 30-December 16, 2010.

We reviewed DoD planning guidance as reflected in campaign plans, operational orders and
fragmentary orders associated with the effort to develop medical logistics capability of the
ANSF, MoD and MoI. We also reviewed NTM-A/CSTC-A Instructions and guidance as well as
Decrees and guidance published by the Afghan MoD and MoI.

The purpose of our assessment in Afghanistan was to determine whether the system of
accountability and control over funding, acquisition, receipt, storage and distribution of Class
VIII supplies funded by, or provided to the ANSF by the DOD; specifically in the areas of
pharmaceuticals, medical materiel, and equipment is sufficient.

We conducted meetings with NTM-A/CSTC-A staff and civilian contractor personnel and
reviewed plans and policies pertinent to all aspects of developing medical logistics capacity for
the ANSF. Our work focused on obtaining data including, but not limited to, the following
areas:

    •	 Planning as reflected in campaign plans, operational orders and fragmentary orders
       associated with the effort to develop medical logistics capability of the MoD and MoI
    •	 Implementation by entities of the DoD, NATO/ISAF, Coalition forces, and the GIRoA to
       develop medical logistics system
    •	 Procurement activities of Class VIII items and medical equipment associated with the
       MoD and MoI
    •	 Issues pertaining to the performance and logistical readiness of MoD and MoI
    •	 Ministry of Defense, Office of the Surgeon General, ANA Logistics Command, National
       ANA Military Hospital and five (5) Regional Hospitals and warehouses
    •	 Ministry of Interior, ANP Surgeon General and the ANP National Hospitals and
       warehouse
    •	 MoD and MoI orders and guidance associated with accountability and control over Class
       VIII supplies and medical materiel and equipment
    •	 USGNATO/ISAF, and Coalition personnel/teams/units involved in the effort to develop
       institutional capacity for the MoD and MoI, to include units/organizations in the
       “partnering” effort
    •	 Prior assessments, audits, inspections, and studies




                                                95

Office Calls and Briefings: We met with DOD and ANSF organizations and individuals located
throughout Afghanistan for this assessment. The itinerary included meetings with:
    •	 HQ ISAF CJMED
    •	 NTM-A/CSTC-A
           o	 Commander, NTM-A/CSTC-A
           o	 NTM-A/CSTC-A Staff including
                   IG, CJ-8, SAO
                   CORs and COTRs
                   M-TAG
          o	 Government Civilian Contractors (MPRI/DynCorp and others involved in the
              capacity-building effort)
    •	 MoD/ANA
           o	 Minister of Defense
           o	 Chief of the General Staff, ANA
           o	 Director Office of the Surgeon General (OTSG)
           o	 Director for the Logistics Command Class VIII at Depot 0
           o	 Military leaders and soldiers in the field as appropriate
    •	 MoI/ANP

       Minister of Interior

           o	 ANP Surgeon General
           o	 Police leaders in the field as appropriate

Site Visits: To gain additional knowledge, two site visit teams conducted simultaneous visits of
medical facilities and associated logistic depots as follows:

   •	 National Military Hospital, Kabul

   •	 203 Corps, Gardez (Conference Call)

   •	 205 Corps, Kandahar

   •	 207 Corps, Herat

   •	 209 Corps, Mazar-e-Sharif

   •	 Wazar-Akbar-Khan Hospital, Kabul (Ministry of Public Health)

   •	 National Police Hospital, Kabul

Limitations
Security considerations prevented a formal site visit to the Gardez, Afghanistan area.

Use of Computer-Processed Data
We reviewed computer generated data to identify medical logistic contracts to determine
number, type and associated costs of medical equipment and supplies purchased in support of the

                                                96

ANSF healthcare system. We judged the information to be sufficiently reliable to support the
conclusions and recommendations in the report.

Use of Technical Assistance
Two subject matter experts were used during the conduct of this assessment. A senior United
States Army, Medical Service Corps Pharmacist and on temporary assignment and a senior
United States Air Force Medical Service Corp Health Care Administrator logistician on
temporary assignment provided valuable insight and expertise during the conduct of this
assessment.




                                              97

This Page Intentionally Left Blank




               98

Appendix B. Summary of Prior Coverage
During the last three years, the DOD, the Government Accountability Office (GAO) and the
Department of Defense Inspector General have issued a number of reports and testimony
discussing the development, accountability and control of logistics and supplies for the ANSF.

Unrestricted DOD reports can be accessed over be Internet at http://www.defense.gov/pubs
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov
Unrestricted DODIG reports can be accessed over the Internet at
http://www.dodig.mil/audit/reports
Some of the prior coverage we used in preparing this report has included:

Congressionally Initiated Reports
Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Report on Progress toward Security and Stability in Afghanistan,”
June 2009

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), as amended, “Report on Progress toward Security and Stability in
Afghanistan,” April 2010

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), as amended, “Report on Progress toward Security and Stability in
Afghanistan,” November 2010

Government Accountability Office
GAO-10-842T, “Preliminary Observations on DOD’s Progress and Challenges in Distributing
Supplies and Equipment to Afghanistan,” June 2010.

GAO-10-655R, “Strategic Framework for U.S. Efforts in Afghanistan,” June 2010

GAO-08-661, “Further Congressional Action May Be Needed to Ensure Completion of a
Detailed Plan to Develop and Sustain Capable Afghan National Security Forces,” June 18, 2008

Department of Defense Inspector General
DODIG Report No. SPO-2010-001, “Assessment of U.S. and Coalition Efforts to Develop the
Medical Sustainment Capability of the Afghan National Security Forces,” March 31, 2010

DODIG Report No. SPO-2009-007, “Assessment of U.S. and Coalition Plans to Train, Equip,
and Field the Afghan National Security Forces,” September 30, 2009

DODIG Report No. SPO-2009-001 – “Assessment of Arms, Ammunition, and Explosives
Control and Accountability; Security Assistance; and Sustainment for the Afghan National
Security Forces,” October 24, 2008


                                               99

This Page Intentionally Left Blank




               100

Appendix C. Organizations Contacted and
Visited
We visited, contacted, or conducted interviews with officials (or former officials) from the
following NATO, U.S., and Afghan organizations:

Afghanistan
ISAF
   •   HQ ISAF CJMED
   •   Regional Command North
   •   Regional Command South
   •   Regional Command West

Commander, NTM-A/CSTC-A
  • Medical Training Advisory Group Staff
  • CJ-8
  • Logistic Training Advisory Staff
  • Security Assistance Office
  • CJ-Inspector General
  • Criminal Investigation Division
  • Defense Criminal Investigation Service
  • DynCorp Contractor Program Manager
  • Military Professional Resources Incorporated (MPRI) Contractor Program Director
  • Commander Regional Support Command North
        o Medical Training Advisory Group staff
  • Commander Regional Support Command South
        o Medical Training Advisory Group staff
  • Commander Regional Support Command West
        o Medical Training Advisory Group staff

Government of the Islamic Republic of Afghanistan

Ministry of Defense
   • Minister of Defense
   • MoD Inspector General
   • Office of the Surgeon General
   • Chief of Logistics and Finance/Budget
   • Commander National Military Hospital (Kabul)

Ministry of Interior
  • Deputy Minister for Admin/Support
  • MoI Inspector General


                                               101

    •   Afghan National Police Deputy Surgeon General
    •   Afghan National Police Class VIII Warehouse (Kabul)
    •   Afghan National Police Hospital (Kabul)

Afghan National Army
   • Chief of General Staff
   • General Staff Inspector General
   • Kabul Military Training Center
   • Military Entrance Processing Station
   • 203 Corps, Gardez (via phone)
         o Corps Surgeon, 203 Corps
   • 205 Corps, Kandahar
         o Commander, 205 Corps
         o Corps G-4
         o Deputy Commander 205 Corps
         o Corps Surgeon
         o Personnel assigned to the Troop Medical Clinic
         o Commander and staff of the Regional Military Hospital
         o Commander and staff assigned to the Forward Support Depot
   • 207 Corps, Herat
         o Commander, 207 Corps
         o Corps G-4
         o Deputy Corps Commander
         o Corps Surgeon
         o Personnel assigned to the Troop Medical Clinic
         o Commander and staff of the Regional Military Hospital
         o Commander and staff assigned to the Forward Support Depot
   • 209 Corps, Mazar-e-Sharif
         o Commander, 209 Corps
         o Corps G-4
         o Corps Surgeon
         o Personnel assigned to the Troop Medical Clinic
         o Commander and staff assigned to the Regional Military Hospital
         o Commander and staff of the Forward Support Depot

United States
Department of Defense
•   Under Secretary of Defense for Personnel and Readiness,
       o Officials assigned to the Assistant Secretary of Defense for Health Affairs

        Department of the Army
        •   Officials assigned to the U.S. Army Medical Material Agency
            o Officials assigned to U.S. Army Medical Material Center, Europe


                                              102

Department of the Air Force
  •	 Officials assigned to the U.S. Air Force Medical Operations Center

Joint Forces Command
   •	 Officials assigned to the U.S. Joint Forces Command (Surgeon General)

U.S. Central Command
   •	 Officials assigned to the Office of Inspector General
   •	 Officials assigned to the Office of the Surgeon General, U.S. Air Forces Central

U.S. Air Combat Command
   •	 Officials assigned to the Office of the Surgeon General

Center for Disaster and Humanitarian Assistance Medicine
   •	 Officials assigned to the Afghanistan Healthcare Sector Reach Back Project at the
      Uniformed Services University of the Health Sciences.




                                      103

This Page Intentionally Left Blank




               104

Appendix D. Report Distribution
Office of the Secretary of Defense
Secretary of Defense
Deputy Secretary of Defense
Chairman of the Joint Chiefs of Staff
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Policy
Under Secretary of Defense for Personnel and Readiness *
Assistant Secretary of Defense (Health Affairs)

Combatant Commands
Commander, U.S. Central Command
Commander, International Security Assistance Force/U.S. Forces–Afghanistan *
     Commander, International Security Assistance Force Joint Command
     Commander, NATO Training Mission-Afghanistan/Combined Security Transition
         Command–Afghanistan *

Other Defense Organizations
Special Inspector General for Afghanistan Reconstruction

Congressional Committees and Subcommittees, Chairman
and Ranking Minority Member
Senate Committee on Appropriations
       Senate Subcommittee on Defense
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
      House Subcommittee on Defense
House Committee on Armed Services
House Committee on Oversight and Government Reform




*
    Recipient of the draft report



                                             105

This Page Intentionally Left Blank




               106

Appendix E. Background – Afghan National
Army and Police Health Care System
Background
Following three decades of war, the health care system in Afghanistan was undeveloped and did
not meet any internationally recognized health care standard. After the fall of the Taliban in
2001, the US and international coalition forces developed a plan for creating a national security
force that included a military health care system.

The military health care system in existence at the start of the coalition initiative consisted of
remnants of the Russian-based system with multiple poorly-supported clinics, four small
hospitals spread across the country, and the 400-bed Dawood National Military Hospital (NMH)
which is the largest hospital in Afghanistan, located in Kabul.

These medical facilities provided the starting point for developing healthcare system capabilities
for the ANA and ANP capable of providing health service support to Afghan Soldiers,
Policemen and families of the ANA and ANP.

Major ANSF Organizations and Supporting Medical Elements
Afghan National Police
ANP Surgeon General and staff, and medical assets which include the Office of the Surgeon
General and subordinate administrative offices, ANP Hospital, ANP Medical Warehouse, ANP
training center clinics, and medics assigned to the border and civil order police.

Afghan National Army
 The ANA Surgeon General and staff, the ANA Medical Command consisting of the Dawood
NMH and four military regional hospitals (RMH), the Armed Forces Academy of Medical
Sciences, and medical assets at Corps and below. Corps and below assets include Corps
Surgeons, Garrison Clinics, Brigade Surgeons and staff, three battalion aid stations per combat
brigade, one medical company and one medical platoon per Brigade Combat Service Support
Battalion (Kandak is the Dari word for battalion).

The following sections describe how the ANA delivers healthcare: 32

ANA Combat Health Support System Echelons of Care
The ANA Combat Health Support (CHS) system is described in terms of CHS Echelons of Care.
CHS is arranged into four echelons of medical care. Each echelon reflects an increase in medical
capabilities while retaining the capabilities found in the preceding echelon. The four echelons of
support extend rearward from the battlefield and are tailored to enhance patient acquisition,
treatment, evacuation and return to duty as far forward as the tactical situation permits.



32
     SPO fieldwork focused primarily on the ANA.

                                                   107

Echelon I
Medical care is provided by designated individuals or elements organic to combat and combat
support units. Major emphasis is placed on those measures necessary to stabilize the patient
(maintain airway, stop bleeding, and prevent shock) and allow for evacuation to the next echelon
of care. Echelon I medical care is provided by the medical platoons of combat/combat service
kandaks, medical companies of combat service support kandaks, and garrison troop medical
clinics (TMC). Generally, this is the first medical care a soldier receives and should include the
following:

   o	   Immediate lifesaving measures
   o	   Prevention and treatment of disease and non-battle injuries
   o	   Combat operational stress control preventive measures
   o	   Patient collection.
   o	   Medical evacuation from supported units to supporting medical treatment elements.
   o	   Treatment provided by designated trauma specialists or treatment squads (Kandak Aid
        Stations).

A major emphasis is placed on those measures necessary for the patient to return to duty (RTD),
or to stabilize the patient to allow for evacuation to the next echelon of care. These measures
should include maintaining the airway, stopping bleeding, preventing shock, protecting wounds,
immobilizing fractures, and other emergency measures, as indicated.

Echelon II
Medical care at this echelon is rendered at the combat Brigade (BDE) level, by the Medical
Company in the Brigade’s Combat Service Support (CSS) Kandak. There are also Garrison
TMCs that provide Echelon II care with limited laboratory assets.

At the medical company, patients are examined and wounds and general status are evaluated to
determine the treatment and evacuation precedence, as a single casualty among other casualties.
Those patients who can return to duty within 1 to 3 days are held for treatment.

Emergency medical treatment (including beginning resuscitation) is continued and, if necessary,
additional emergency measures are instituted; but they do not go beyond the measures dictated
by the immediate necessities. The medical company also provides Echelon I care to those units
without organic medical elements within its area of responsibility (AOR).

Echelon III
The ANA RMHs located at Kandahar, Gardez, Herat and Mazar-e-Sharif are staffed and
equipped to provide Echelon III medical care. This echelon of care includes medical activities
such as: resuscitation, surgery, and postoperative treatment. Patients are stabilized for continued
evacuation or returned to duty (RTD). Those patients not expected to RTD within the theater
evacuation policy are stabilized and evacuated to the NMH in Kabul, or other Afghan National
Government Health Care System Specialty Centers as appropriate.




                                                108

Echelon IV
This echelon provides a definitive and rehabilitative treatment capability for patients. This
echelon of care is provided by the NMH and Annex Hospital in Kabul or other Afghan National
Government Health Care System Specialty Centers, like the National Public Health or Ministry
of Higher Education Hospitals.




Figure 1.Depicts the ANA and ANP Healthcare Systems Echelons of Care

ANA Corps and Above Healthcare Structure
The Office of the Surgeon General provides advice to the Minister of Defense and oversight of
the operations and maintenance of the Armed Forces Academy of Medical Sciences, the Dawood
NMH and the four RMHs. The RMHs and NMH are prepared to provide all echelons of health
care.

The Directors of the RMHs report to, and receive guidance from the OTSG. Each RMH has a
dedicated Medical Depot near the hospital.

ANA Corps and Below Combat Health Support Structure
The combat forces of the ANA are organized into six Corps. Each Corps has between two and
four brigades and each brigade has up to six Kandaks. Corps and below healthcare is limited to
Echelons of Care I and II.

At the Corps level, there is a Corps Surgeon Office. The Corps Surgeon is responsible for the
overall health and welfare of the members of the Corps, and to a degree, the eligible dependants.




                                               109

The Corps Surgeons Office plans, coordinates and supervises Corps-level medical operations and
logistics, provides oversight on medical training within the Corps, and oversees Preventative
Medicine activities.

Each brigade has a Brigade Surgeon Office, which has similar responsibilities as the Corps
Surgeon office, but focuses on the brigade. Each Brigade also has a Troop Medical Clinic
(TMC), which provides Echelon II care to troops and eligible family members. The TMC is also
responsible for preventative medicine activities within the brigade.

Each brigade has up to four Infantry Kandaks, and one Combat Support (CS) kandak. These
kandaks contain one Treatment Platoon each.

The Treatment platoon provides Echelon I care and patient evacuation for the kandak. The unit
has no official patient holding capacity.

Each brigade also contains one Combat Service Support kandak and the medical personnel in
this unit supplement the Echelon I care and ground evacuation for the brigade’s operations.

The medical company also operates a Class VIII warehouse for resupply to the units within the
brigade and operates a field hospital that provides additional Echelon I patient stabilization and
patient holding for patients awaiting evacuation to higher Echelons of care.




Figure 2. Depicts Major ANA and Police Hospitals and Medical Logistics Locations

                                                110

ANA Medical Logistics Structure Overview
The ANA medical logistics system consists of the following fixed facilities:

   •	   ANA National Medical Depot – Kabul (201st Corps)
   •	   Regional Medical Depot - Mazar-E-Sharif (209th Corps)
   •	   Regional Medical Depot – Herat (207th Corps)
   •	   Regional Medical Depot – Gardez (203rd Corps)
   •	   Regional Medical Depot – Kandahar (205th Corps)
   •	   LOGCOM CL VIII Depot (pending relationship change with MEDCOM) houses some
        ANA requirements in the form of Trauma and Ambulance Kits.

Ministry Decrees Appropriate to Logistics
MoD Decree 4.0 (Logistics Policy and Support Procedures)
This decree is the most important logistics decree for the ANA. It establishes common
procedures, formats, and forms for the communication of logistics information between
supported activities and the supply & materiel management functions of the MoD. Some of the
topics that are covered in great detail are roles and responsibilities of MoD logistics offices,
warehouse operations, the MoD 14 resupply request process, the MoD 9 supply distribution
process. Decree 4.0 also describes how to fill out most of the important logistics forms.

MoD Decree 4.2 (Material Accountability)
This decree outlines basic policies and procedures that apply in accounting for military materiel,
including: the rationale and system for materiel accounting; implementation procedures
accounting for different types of materiel; and establishment of accounting procedures used
when materiel is lost, damaged, or destroyed other than through standard wear and tear. Critical
materiel resources must be meticulously accounted for and tracked by appropriate accountable
officials, and they are fully expected to adhere to the rigid rules and standards established by the
MoD




                                                111

This Page Intentionally Left Blank




               112

Appendix F. Summary of the DoDIG Quick-Look
of the ANA National Military Hospital
Background
In response to concerns identified in an inspection report issued by a joint team of the Inspectors
General of the Ministry of Defense and Combined Security Transition Command – Afghanistan
(CSTC-A), the DoD Inspector General tasked his organizational components based in
Afghanistan to assess the current status of healthcare at the Afghan National Army’s National
Military Hospital (NMH) in Kabul.

Discussion
Five days later, an OIG team composed of six members of the DoDIG Special Plans and
Operations and Audit office, along with MG Gary Patton, DCOM-Army; BG David Neasmith,
ACG-Army Development; COL John Ferrari, DCOM-Programs; the incoming and outgoing
CSTC-A Command Surgeons; and the CSTC-A IG visited the NMH on Feb 21, 2011. The team
was met at the hospital by LTG Akram (Vice Chief of the General Staff), the ANA Surgeon
General, the Hospital Commander and other hospital personnel who accompanied the visit.

The team found notable progress had been made in certain areas since the report provided the
DoD IG, especially with respect to general sanitation of medical facilities and medical supplies
for patient care. In addition, the senior management of the Medical Command and the NMH had
been replaced. But, other problems endemic to the Afghan military and public health care
systems still persisted. These problems included:

       a.	 The NMH hospital was understaffed, including; physicians, nurses, administrators
           and other staff, and their quality and attendance were problematic.
       b.	 Though the MoD had signed the order directing the transfer of MoD Medical
           Logistics currently under the OTSG/MEDCOM to LOGCOM to gain better MoD
           management control, this had not occurred.
       c.	 There was evidence that the medical logistics system delivery of medical supplies to
           the hospital’s pharmacy and between the pharmacy and the patients was
           dysfunctional.
       d.	 Orthopedic operating tables, valued over $400K were found in original packing
           crates, and believed to be beyond the capability of the ANSF medical staff.

Moreover, the goals with respect to ANSF health care standards to be achieved had not been
defined. Therefore, it had not been possible for the Coalition to build the most effective medical
mentoring model, one that is closely linked to these standards and the necessary supporting
health care policy. The team concluded that the lack of ANSF medical standards and policy was
a significant limitation with respect to NTM-A command efforts to develop a sustainable ANSF
medical system. By having established medical standards and implementing policy, on the other
hand, the appropriate required ANSF resources could be determined and allocated in order to
achieve this end-state.



                                                113

NTM-A/MTAG appeared to be moving aggressively to make the necessary adjustments that will
enable a sustainable health care system to be established so that the ANSF can make a successful
transition to taking the lead in providing medical care to their security forces by taking the following
actions:

        a.	 The CSTC-A IG continued oversight to further improve NMH performance.
        b.	 Working with the NGO CURE International and the ANSF to define, promulgate and
            implement Standards of Care for the ANSF.
        c.	 CSTC-A stood up an Operational Planning Team with the ANSF on Mar 1, 2011 to
            establish performance milestones and decision points.
        d.	 Pursuing the appropriate numbers, skills, and seniority of Coalition health care
            development mentors, as well as requesting appropriate pre-deployment training for
            medical mentors.
        e.	 Engaged with ISAF in developing the Coalition’s policy delineating the “Division of
            Responsibility” between the ANA and ANP to provide effective healthcare for the
            ANSF.

Recommendations
The OIG team with the concurrence of NTM-A/CSTC-A made a few key recommendations, as
follows:

1. OSD/Joint Staff should provide support to NTM-A/CSTC-A medical mentoring efforts by
sourcing an adequate number of medical personnel with the “right’ skill sets needed to
accomplish the mission.
2. OSD/Joint Staff should support the Command’s effort by supplementing the basic Program of
Instruction (POI) provided military personnel before deployment to Afghanistan with medical
mentor training.
3. DoD IG should conduct a follow-on assessment mission focused on the CSTC-A/ANA
Action Plan for ANSF Healthcare to the ANSF and its implementation.
4.	 DoD IG should conduct an Audit concentrating on the medical logistics supply chain.

Recommendations 1 and 2 were addressed in the reporting and recommendations contained in
the Medical Logistics report preceding these appendices. The assessment contained in
recommendations 3 is anticipated in the January 2012 timeframe and is currently under
development within DoDIG.

The audit contained in Recommendation 4 will be announced in June 2011. The audit objective
is to determine the effectiveness of the pharmaceutical distribution within the Afghanistan
National Security Forces health care system. Specifically, the audit will evaluate the
procurement, delivery, and inventory control processes for pharmaceuticals at Afghanistan
National Security Forces medical facilities and depots. The audit will be performed at multiple
sites throughout Afghanistan. The auditors will interview and obtain information from the
NATO Training Mission-Afghanistan/Combined Security Transition Command-Afghanistan and
other subordinate directorates that handle the logistics procurement and management of
pharmaceuticals.


                                                  114

Appendix G. Management Comments
NATO Training Mission – Afghanistan / Combined Security
Transition Command – Afghanistan




                           115

116

117

118

119

120

121

122

123

124

125

126

127

128

129

130

131

The Assistant Secretary of Defense for Health Affairs





                              132

133

      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations


                                                                                                                                                Department of Defense Inspector General


             of Defense personnel, programs and operations to support the
                                                                                                                                                           400 Army Navy Drive


                  Department's mission and serve the public interest.
                                                                                                                                                        Arlington, VA 22202-4704






                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
